AUDIT OF THE FEDERAL BUREAU OF 

PRISONS’ CONTRACTING FOR AND 

 MANAGEMENT OF RESIDENTIAL 

       REENTRY CENTERS


       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 12-20 

              March 2012

      AUDIT OF THE FEDERAL BUREAU OF PRISONS’ 

  CONTRACTING FOR AND MANAGEMENT OF RESIDENTIAL 

                  REENTRY CENTERS



                             EXECUTIVE SUMMARY


       Since the 1980s, the Federal Bureau of Prisons (BOP) has utilized
Residential Reentry Centers (RRCs), operated by private contractors, to
transition inmates into communities prior to release from incarceration.
RRCs provide a structured, supervised environment, along with support in
job placement, counseling, and other services to facilitate successful reentry
into the community after incarceration, while allowing inmates to gradually
rebuild ties to the community. In addition, multiple studies have found that
when inmates are transitioned through RRCs, rather than being released
directly into society, the inmates are more likely to be gainfully employed
and less likely to commit new crimes (recidivate). According to the BOP,
91 percent of inmates referred to RRCs successfully complete the RRC
program and return to local communities.1 From fiscal years
(FY) 2008 through 2010, the BOP transitioned almost 90,000 inmates into
RRCs prior to release from incarceration at a cost of about $777.8 million.

       The Second Chance Act, enacted in April 2008, required the BOP to
expand its use of RRCs, as well as other reentry programs, and report
annually on its utilization of RRCs.2 During FYs 2008 through 2010, the BOP
utilized 92 contractors to operate 177 RRC contracts throughout the
United States. The RRC contractors are generally required to follow the
Statement of Work for Residential Reentry Centers (SOW), updated
May 2010, which outlines all of the BOP’s requirements for operating RRCs.3
Pursuant to the SOW, RRCs are required to develop individualized program
plans for each inmate. As applicable, the individualized program plans focus

      1
          U.S. Department of Justice, Federal Bureau of Prisons, State of the Bureau (2008).
      2
          18 U.S.C. §3624 (2011).
      3
          During the period included in our audit, the BOP utilized 13 performance-based
contracts awarded to 8 contractors. The performance-based contracts are not governed by
the SOW; however, many of the SOW requirements are included in the performance-based
contracts. Five of the six RRCs included in our audit were governed by the SOW, while the
remaining RRC included in our audit was governed by two performance-based contracts.
Throughout this report, requirements described as contained in the SOW are also contained
in the 13 performance-based contracts.
on reestablishing relationships with family, obtaining and maintaining
employment, obtaining drug and alcohol treatment, and finding housing,
which often requires that the inmate leave the RRC facility for approved
absences. As a result, inmate accountability is also a critical SOW
requirement, and RRCs must: (1) be able to locate and verify the
whereabouts of inmates at all times, (2) establish a surveillance program to
deter and detect the illegal introduction of drugs and alcohol into the facility,
(3) effectively discipline inmates, and (4) prepare and maintain required
documentation related to its performance under the SOW.

Office of the Inspector General Audit Approach

      The objectives of the audit were to determine whether: (1) RRC
operations are conducted in compliance with BOP requirements and (2) the
BOP effectively administers and monitors its RRC contracts. The scope of
the audit was FYs 2008 through 2010.

       We conducted audit work at six RRCs in Denver, Colorado (Denver
RRC); Leavenworth, Kansas (Leavenworth RRC); El Paso, Texas (El Paso
RRC); Boston, Massachusetts (Boston RRC); Kansas City, Missouri
(Kansas City RRC); and Washington, D.C. (Washington RRC). We also
interviewed officials at BOP Headquarters responsible for the contract
solicitation and award, and the operation of the RRC program. In addition,
we interviewed officials at the BOP Regional Office in Kansas City, Kansas;
and BOP Contract Oversight Specialists (COS) responsible for monitoring
RRCs and RRC billings in Denver, Colorado; Kansas City, Kansas; and
El Paso, Texas. For comparison purposes, throughout this audit, it should be
noted that the six RRCs reviewed varied in size. The bed capacities for each
of the six RRCs are shown in Exhibit 1.




                                        ii
                              EXHIBIT 1 

               BED CAPACITIES FOR THE SIX RRCS AUDITED4


                            FACILITY                   BED CAPACITY
                   Denver RRC                                 85
                   Leavenworth RRC                            55
                   El Paso RRC                              132
                   Boston RRC                                 88
                   Washington RRC                           140
                   Kansas City RRC                            90
                             Total                          590
              Source: BOP

      To determine whether RRCs are operating in compliance with BOP
requirements, we selected a judgmental sample of 177 inmates out of the
8,736 inmates who were transferred to the six RRCs, from FYs 2008 through
2010, and reviewed all related documentation.5 We also reviewed at least
3 months of RRC billings submitted to the BOP for each of the six RRCs.

      Finally, to determine whether the BOP ensures the RRCs are operating
in compliance with BOP requirements, we reviewed the BOP’s FY 2010 full
monitoring reports for all 177 RRC contracts and all BOP monitoring reports




      4
           The audited Washington RRC operated under two contracts. The BOP needed to
expand the bed capacity in Washington, D.C. and chose to award a second contract rather
than amending the original contract. The audited Washington RRC corresponds to the 2
Washington RRCs listed in Appendix III with bed capacities of 75 and 65. Although the
audited Washington RRC operated under two contracts, it was managed as one facility with
one facility director.
      5
          Generally, 50 percent of our sample included escaped inmates and the remaining
50 percent was selected randomly from the remaining inmates included in the scope of our
audit. However, in some instances there were not enough escaped inmates during the
period to make up 50 percent of the sample, in which case we randomly selected additional
inmates from the remaining non-escapees. As a result, our sample intentionally included a
disproportionally higher number of escaped inmates than the 3 percent average number of
escapes from all RRCs during the period reviewed.

                                            iii
from FYs 2008 through 2010 for the 6 RRCs reviewed.6 Appendix I contains
a more detailed description of our audit objectives, scope, and methodology.

Results in Brief

       As stated previously, the SOW sets out the requirements RRCs must
follow to assist inmates in acquiring the skills necessary to successfully
transition back into society, while at the same time ensuring that the
inmates are accounted for at all times. In addition, the SOW requires RRCs
to collect subsistence payments (generally 25 percent of the inmates’ gross
pay) from employed inmates to promote inmate financial responsibility and
assist in reducing the costs of confinement. We found that the six RRCs we
reviewed adequately met most of the SOW requirements. However, we
found that all six RRCs did not fully comply with the SOW. We identified
deficiencies related to substance abuse testing, inmate subsistence
payments, escapes, and authorized inmate absences. These conditions
increase the probability that inmates will not successfully transition back into
society.7

       Specifically, we found:

   	 30 percent of inmates in our sample were not given one of the four
      required monthly drug tests and the Denver RRC did not administer
      breathalyzer tests to all inmates returning to the facility from
      unsupervised activities;




       6
          A full monitoring report is a comprehensive review by the BOP of all aspects of an
RRC’s operation and facility. The BOP conducts a full monitoring inspection and review of
every major use (RRCs with an average daily population of 31 or more) and moderate use
(RRCs with an average daily population of 16 to 30) RRC annually. Full monitoring
inspections and reviews of minor use contracts (RRCs with an average daily population of
15 or less) are conducted once every 18 months. The full monitoring report is broken up
into the following six areas: (1) inmate accountability, (2) inmate programming,
(3) community relations, (4) RRC compliance with laws and regulations, (5) RRC staff, and
(6) communications with the BOP. In addition to full monitoring inspections, the BOP also
conducts pre-occupancy visits to assess whether the RRC is ready to begin performance,
interim monitoring inspections – an unannounced on-site examination – to follow up on, but
not limited to, previously identified deficiencies; and contractor evaluations rating the RRCs
performance at the end of each 12-month performance period.
       7
         The current Boston and Kansas City RRC facility directors explained that the
majority of findings attributed to their facilities were a result of the previous RRC staff, who
were replaced in February 2011 and November 2009, respectively.



                                               iv
   	 during the periods reviewed, the Denver RRC failed to collect
      13 percent of the required subsistence payments, the Boston RRC
      failed to collect 14 percent of the required subsistence payments, and
      the Kansas City RRC failed to collect full subsistence payments for
      14 percent of the payments reviewed;

   	 required disciplinary hearings were not conducted for 32 percent of the
      escaped inmates included in our sample; and

   	 138 authorized absences from which inmates returned to the facility
      between 1 and 8 hours late without a documented reason for the
      delay.

   	 33 of the 177 inmates in our sample arrived more than 1 hour late on
      multiple occasions, but 28 of the 33 were not formally disciplined.

      We also identified issues related to incomplete or missing
documentation at all six RRCs we visited. Together, these issues raise the
concern that the RRCs cannot ensure compliance with SOW requirements
related to: (1) inmate passes, (2) approval and documentation of
authorized inmate absences, (3) inmate and official visitors, (4) inmate
employment, and (5) maintaining inmate files. In addition, we identified
areas that were not sufficiently addressed in the SOW related to:
(1) collecting, documenting, and reporting inmate subsistence payments;
(2) procedures for technical escapes; (3) disciplinary requirements for
escapees; (4) timeframes for implementing escape procedures; and
(5) timeframes for reporting unaccounted for inmates as escapes.

       We found that in most areas, the BOP’s procedures for administering
and monitoring RRC contracts were adequate. However, we identified
deficiencies in the BOP’s processes for reviewing RRC invoices to determine
if the correct amount of subsistence payments were collected and reported.
Specifically, RRCs are not required to provide supporting documentation
related to subsistence payments along with the monthly invoices; as a
result, BOP staff do not have sufficient information to determine if the
subsistence payment amounts reported were accurate. We also found that
the BOP’s RRC monitoring efforts failed to detect the significant deficiencies
related to inmate subsistence payments, and that subsistence payment
monitoring procedures were inconsistent across RRCs.

     Finally, our review of the annual FY 2010 full monitoring reports for all
177 RRC contracts disclosed differences among the BOP Community



                                       v
Corrections Management (CCM) offices in the way issues are reported.8 In
some reports we found issues that were reported as a “significant deficiency”
for which the RRC was required to implement a formal corrective action plan,
while in other reports similar issues were reported as an “area of concern”
for which the RRC is not required to implement a formal corrective action
plan.

      In this report, we make 10 recommendations to assist the BOP in
strengthening the operation, administration, and monitoring of the RRC
program.

      Our report contains detailed information on the full results of our
review of the BOP’s RRC program. The remaining sections of this
Executive Summary summarize in more detail our audit findings.

Substance Abuse Testing

      Each RRC must randomly test at least 5 percent of all inmates for
drugs and alcohol monthly, with a minimum of one inmate tested per month,
in order to deter and detect the illegal introduction of drugs and alcohol into
the facility. Further, inmates with a history of drug abuse, or who are
suspected of illegal drug use, are required to be tested for illegal substances
no less than 4 times a month. In addition, RRCs must administer
breathalyzer tests for alcohol every time an inmate returns to the facility
from unsupervised activities.

        From our sample of 177 inmates, we indentified 123 inmates who
were required to be given drug tests at least 4 times per month because the
inmates had prior histories of substance abuse. We found at 5 of the 6 RRCs
a total of 37 of the inmates identified from our sample (30 percent) were not
given all four required drug tests during one of the 1-month periods. We did
not find any instances of inmates missing more than one drug test during a
1-month period or any instances of inmates missing a drug test in more than
1 month. Additionally, we found that the Denver RRC selectively
administered breathalyzer tests to a sample of inmates returning to the
facility from unsupervised activities, rather than administering breathalyzer
tests to all such inmates as required by the SOW. The missing drug testing
and the Denver RRC’s failure to conduct all required alcohol testing could
result in the RRCs and BOP not identifying inmates who have relapsed and
not addressing substance abuse problems in a timely manner.

       8
         BOP CCM offices are responsible for all functions, programs, and services related
to RRCs, including monitoring the RRCs for compliance with the SOW.



                                             vi
Inmate Subsistence Payments

      To promote financial responsibility the BOP requires inmates to make
subsistence payments to RRCs each payday. Subsistence payments are
generally 25 percent of the inmates’ gross income, although waivers may be
granted. RRCs are responsible for collecting the full subsistence payment
amount due and providing inmates with receipts for all subsistence
payments collected. The RRCs are also required to reduce the monthly BOP
invoices by the amount of subsistence payments collected, thus decreasing
the BOP’s RRC program costs.

      We found that three of the six RRCs reviewed—the Denver, Boston,
and Kansas City RRCs—substantially failed to comply with subsistence
payments collection, documentation, and reporting requirements.
Specifically, we identified the following concerns related to subsistence
payments at these three RRCs.

   	 The Denver RRC failed to collect 13 percent of the total required
      subsistence payments for the period reviewed, resulting in questioned
      costs totaling $80,255.9

   	 The Boston RRC failed to collect 85 subsistence payments, equal to
      14 percent of the total required subsistence payments for the period
      reviewed.10 However, we were unable to calculate the amount of
      subsistence payments that was not collected because this RRC did not
      maintain sufficient documentation. In addition, we noted five
      instances for which the Boston RRC did not collect the full amount of
      subsistence payments owed, resulting in questioned costs totaling
      $1,046, $830 of which the BOP subsequently remedied, resulting in
      $216 remaining questioned costs.

   	 The Kansas City RRC failed to collect the full amount owed for
      14 percent of the subsistence payments reviewed for June through



        9
             At the Denver RRC we analyzed all subsistence payments for FYs 2008 through
2010.
        10
           At the Boston RRC we analyzed subsistence payments for July 2008, March 2009,
and August 2010. We did not review all subsistence payments at the Boston RRC for
FYs 2008 through 2010 because the lack of adequate documentation and poor record
keeping prevented us from calculating the actual amounts of subsistence that were not
collected.



                                              vii
      November 2008.11 However, the Kansas City RRC collected excess
      subsistence payments for 12 percent of the payments reviewed during
      that same period, resulting in net questioned costs totaling $1,824.12
      We also found 10 instances (9 percent) where the Kansas City RRC did
      not collect full subsistence payments from the 26 inmates included in
      our sample, resulting in additional questioned costs totaling $258.

   	 The Denver, Boston, and Kansas City RRCs failed to report all
      subsistence payments collected on the invoices submitted to the BOP,
      as required by the SOW, resulting in questioned costs totaling $4,756.

       In total we identified $87,309 in questioned costs related to
subsistence payments that were not collected or were not reported to the
BOP on the monthly billings and deducted from the total invoice amount.
These funds should have been used to reduce the BOP’s RRC program costs.
However, this amount does not accurately reflect the total questioned costs
related to subsistence payments at these RRCs because the Boston and
Kansas City RRCs did not maintain sufficient documentation to calculate the
amounts that were not collected or reported. We were also unable to
accurately project the total questioned costs related to the RRC program as
a whole because the lack of documentation did not allow for a statistically
valid sample.

      We also noted multiple deficiencies at the Denver, Boston, and
Kansas City RRCs related to subsistence payments procedures. We found
that the Denver RRC allowed inmates to maintain a running balance of
subsistence payments owed. The Boston RRC only collected subsistence
payments 1 day per week and if an inmate did not make the subsistence
payment on the required day for any reason, the inmate was instructed to
wait until the following designated subsistence payments collection day to
pay the past due amount, decreasing the probability that the inmate would
have sufficient funds. The Boston RRC also rejected inmate’s attempts to
      11
           At the Kansas City RRC we analyzed subsistence payments for June through
November 2008, as well as all subsistence payments made from 2008 through 2010 for the
26 inmates required to pay subsistence that were included in our sample. We did not
review all subsistence payments at the Kansas City RRC for November 2007 (when the
facility opened) through May 2008, and for FYs 2009 through 2010 because the RRC did not
maintain sufficient documentation for us to calculate the amounts of subsistence payments
not collected.
      12
          Due to the poor recordkeeping at the Kansas City RRC, we were unable to
determine whether the overpayments were an attempt to collect past due subsistence or if
the RRC actually collected subsistence payments in excess of the amount due from the
inmate. As a result, we netted the overpayments and underpayments to determine the
total questioned costs.

                                           viii
make subsistence payments if the inmate’s money order was for the
incorrect amount or included change, since subsistence payments are
supposed to be rounded down to the nearest dollar. In addition, the Boston
RRC did not maintain a record of the amount of subsistence payments that
was not collected. Finally, we found that the Kansas City RRC allowed
inmates to make partial subsistence payments and did not track or collect
the full amount of subsistence payments that should have been made.

       In our judgment, not consistently enforcing the subsistence payment
requirements risks undermining the goal of teaching the inmates financial
responsibility, which is a critical skill necessary for the inmates to
successfully transition back into the community. In addition, the RRCs’
deficiencies with respect to subsistence payments increased the net cost of
the RRC program to the BOP, as the BOP’s net costs are directly increased
by any amounts of subsistence payments that are not collected or not
reported by the RRCs.

Inmate Accountability

      Approved inmate absences are an integral part of the RRC program.
However, RRCs must be able to locate and verify the whereabouts of
inmates at all times. The SOW states that when an inmate fails to return to
the facility at the required time, the RRC officials should initiate escape
procedures, and that these procedures should ordinarily take no longer than
20 minutes to complete. However, the SOW does not specify a timeframe
for when RRC’s should initiate escape procedures, if an inmate fails to return
at the required time. Escape procedures include searching the facility, and
contacting individuals and places where the inmate may be located (such as
family, work, police stations, and hospitals). If the inmate has still not been
located after the RRC has completed the required escape procedures the
RRC is required to notify the BOP, who in turn notifies the U.S. Marshals
Service (USMS) of the escape. The USMS is then responsible for attempting
to locate the escaped inmate.

Escapes

      When an RRC cannot locate and verify the whereabouts of an inmate,
or the inmate is arrested during an approved absence, BOP considers the
inmate to have “escaped.” The BOP tracks three categories of “escapes”
from RRCs: (1) regular escapes – when an inmate leaves the facility without
approval, fails to return to the facility at the scheduled time, or fails to arrive
or remain at an approved outside activity; (2) technical new escapes – when
an inmate is arrested for a new crime during an approved outside activity;


                                        ix
and (3) technical old escapes – when an inmate is arrested on an
outstanding warrant.

      From our sample of 177 inmates at the 6 RRCs, we identified
88 inmates who had escaped from the RRCs.13 The length of escape before
an inmate was apprehended ranged from 1 day to 901 days, and 53 percent
of the inmates were not apprehended until more than 10 days after the
escape was reported. As of December 2011, 3 of the 88 escaped inmates
were still on escape status, all of whom had been reported to the USMS. For
28 of the 88 escaped inmates (32 percent), we found that the RRC did not
conduct the required inmate disciplinary hearings related to the escape.14

      In addition to the 88 escapes that were in our sample of 177 selected
case files at the 6 RRCs we visited, we also reviewed the escape reports for
the entire universe of escapes (299) from those 6 RRCs to verify that the
RRCs notified the BOP. We found that the BOP did not have escape reports
for 57 escapes (19 percent). Without escape reports, the BOP is missing key
information related to inmate statistics that may be used in determining
whether RRC inmate accountability procedures are adequate.

      In addition, we found that although the SOW does not distinguish
between regular and technical escapes, it is a common practice for the BOP
and the RRCs to treat the multiple categories of escapes differently. For
example, the BOP explained that escape reports were not provided for 42 of
the 57 escapes that were missing reports because they were technical
escapes, that is, the inmates were already in police custody by the time the
escape report was required. However, in our judgment, the BOP should
ensure that reports are provided for all escapes, including technical escapes
so that it has an accurate record of the types of escapes that are occurring.

     Finally, for the six RRCs we reviewed, we found that the average
amount of time BOP officials took to report escaped inmates to the USMS
was 15.25 hours; ranging from 3 minutes to 4.17 days. We also found that

       13
          The 88 escapes included in our sample consisted of 70 regular escapes
(79 percent), 12 technical new escapes (14 percent), and 6 technical old escapes
(7 percent). As previously stated, our sample intentionally included a disproportionally
higher number of escaped inmates than the 3 percent average number of escapes from all
RRCs during the period reviewed.
       14
           As of December 2011, 3 of the 28 escaped inmates for which the RRC had not
conducted the required disciplinary hearing were still on escape status. However, to meet
the requirements of the SOW, the RRCs should have held the disciplinary hearing in
absentia. The inmates’ presence is not required for the disciplinary hearing in the event
that the inmate has not yet been apprehended.

                                             x
the BOP is not following its established procedures and timeframes for
reporting escapes to the USMS immediately in the case of regular (non­
technical) escapes. The BOP’s delay in reporting escaped inmates at the six
RRCs to the USMS in turn delays the USMS’s search, and thus results in an
increased risk that the escapees will not be apprehended in a timely manner.

Authorized Inmate Absences

      Authorized absences are a necessary part of the RRC program, in
order to achieve specific programming objectives including seeking
employment, strengthening family ties, engaging in religious activities,
education, recreation, and counseling. Inmate absences for approved
program activities are authorized by the RRCs through sign-out procedures.

      We examined all of the approved absences, as well as all passes, for
the 177 inmates included in our sample.15 In total, we found that for
434 authorized absences, related to 92 of the 177 inmates in our sample
(52 percent), the inmate returned to the RRCs more than 1 hour after the
approved return time. We also found that disciplinary actions were not
taken or not documented for 65 of the 71 inmates (92 percent) that arrived
more that 1 hour late without a documented reason for the delay. In
addition, we found that 33 of the 71 inmates (46 percent) had multiple
incidents of returning from authorized absences more than 1 hour without a
documented explanation. Nonetheless, 28 of the 33 inmates (85 percent)
were never formally disciplined.

      We also found that the SOW does not provide adequate guidance to
the RRCs about how long to wait before initiating escape procedures. The
SOW states that when an inmate fails to return to the facility at the required
time, the RRC officials should initiate escape procedures, and that these
procedures should ordinarily take no longer than 20 minutes to complete.
However, the SOW does not specify how long the RRC should wait before
implementing escape procedures or reporting inmates as escaped. In
addition, RRC officials stated that they typically allow up to 2 hours before
reporting inmate escapes, because the RRCs generally allow some time for
the inmate to return to the facility before initiating escape procedures. In
our judgment, the BOP should modify the SOW to provide guidance on how

      15
           Passes are used by RRCs for approved inmate absences overnight and on
weekends, ordinarily to the inmate’s release residence. Overnight or weekend absences are
limited to the local community, up to a 100-mile radius. A pass may be approved by the
RRC for inmates who are successfully completing their programming, which includes
achieving their program plan goals and obtaining gainful employment.



                                           xi
long the RRCs should wait for late inmates to return to the facility before
initiating escape procedures.

Missing or Incomplete Documents

      The SOW requires that “all records related to contract performance will
be retained in a retrievable format for the duration of the contract.” The
SOW also requires that the RRC “will document that all requirements of [the
SOW] are being met.” During our review of the six RRCs included in the
audit, we identified additional deficiencies related to the RRC’s compliance
with these documentation requirements. Specifically, we found that:

   	 for 24 of 112 (21 percent) inmate passes reviewed, the RRC failed to
      make the required twice daily checks;

   	 the sign-out and sign-in logs for the 14,483 authorized absences
      reviewed were missing a total of 3,739 required entries including
      inmate signatures, employee initials approving inmates to leave the
      RRC, inmate register numbers, purpose, approved and actual return
      times, departure times, and destinations;

   	 the sign-in and sign-out logs for the 3,158 authorized visitors reviewed
      were missing a total of 1,005 required entries including arrival and
      departure times, purpose, organization, and name; and

   	 for the 95 employed inmates reviewed, 17 (18 percent) of the required
      employment verifications were not conducted during the inmate’s first
      week of employment, 20 (21 percent) of the subsequent monthly
      employment verifications were not conducted, and 4 (4 percent) of the
      written approvals for employment were not found in the inmates’ case
      files.

       Together, these deficiencies raise a concern that the BOP lacks
documentation of the RRC’s operations sufficient to ensure that the RRCs are
fully meeting their requirements under the SOW.

BOP Monitoring Procedures

       The BOP is required to conduct regular monitoring of all RRCs to
ensure compliance with applicable laws, regulations, policies, and contract
requirements, and to ensure that fraud, waste, abuse, mismanagement, and
illegal acts are prevented, detected, and reported. We found that the BOP’s
monitoring procedures were sufficient to identify most RRC deficiencies


                                      xii
related to compliance with the SOW and that corrective actions were
implemented, with the exception of inmate subsistence payments. In
addition, the BOP needs to ensure that its monitoring and reporting
processes are consistent.

      We found that the BOP’s controls over the collection and reporting of
subsistence payments were inadequate. The BOP officials responsible for
approving the monthly RRC invoices could not review the invoices to
determine if the correct amount of subsistence payments were collected and
reported because RRCs are not required to report the inmates’ gross income
in addition to subsistence payments collected on the monthly invoices. In
addition, RRCs are not required to submit documentation supporting the
subsistence payments reported. The lack of oversight and controls related
to subsistence payments puts the BOP at risk for overpaying RRCs with
funds that could have been used for other purposes.

       We also found that the BOP’s monitoring process failed to identify the
significant deficiencies related to the collection, documentation, and
reporting of subsistence payments at three of the six RRCs included in our
audit. In addition, there were no standardized procedures for monitoring
subsistence payment collection, documentation, and reporting. For
example, one Contract Oversight Specialist (COS) stated that the RRCs were
required to submit all subsistence payment documentation monthly. The
COS also stated that all monthly subsistence payments were reviewed at the
BOP CCM office, but the COS did not retain the subsistence payment
documentation after the review was completed. Conversely, a second COS
stated that random checks of subsistence payments were conducted on-site
at the RRCs.

       Finally, during our review of the FY 2010 full monitoring report for all
177 RRC contracts, we noted differences in the way the deficiencies
identified during the monitoring were reported. We identified 100 reports
that had issues reported as a “significant deficiency” for which the RRC was
required to implement a formal corrective action plan, while in 37 reports a
similar issue was reported as an “area of concern” for which the RRC is not
required to implement a formal corrective action plan. These deficiencies
included: (1) incomplete inmate sign-out and sign-in logs, (2) accountability
checks that were not conducted for inmates away on passes and home
confinement, and (3) problems with the inmates’ individualized reentry
programs. The monitoring reports did not contain sufficient detailed
information to support the classification of the issues reported as a
“significant deficiency” as compared to the similar issues that were reported
as an “area of concern.” As a result, we were unable to determine if the


                                      xiii
similar issues were reported differently because of the severity of the issue
or because of inconsistencies in full monitoring reporting process. In our
judgment, the BOP should develop guidelines for determining the materiality
of issues identified during its monitoring in order to ensure that deficiencies
are reported consistently. In addition, the BOP should modify its monitoring
reports to describe incidents in enough detail that “significant deficiencies”
are clearly distinguished from “areas of concern.”

Conclusion and Recommendation

      We found that the six RRCs we reviewed substantially complied with
SOW requirements. However, we found that the RRCs need to improve
performance related to: (1) performing required breathalyzer tests;
(2) collection, documentation, and reporting of inmate subsistence
payments; (3) inmate escape procedures and reporting; (4) inmate
accountability and discipline; and (5) documentation. Additionally, we found
that the BOP needs to improve its procedures for monitoring inmate
subsistence payments and reporting concerns identified through its
monitoring process.

      Our audit work and findings resulted in 10 recommendations to
strengthen the BOP’s operation, administration, and monitoring of the RRC
program.




                                      xiv
      AUDIT OF THE FEDERAL BUREAU OF PRISONS’ 

  CONTRACTING FOR AND MANAGEMENT OF RESIDENTIAL 

                  REENTRY CENTERS


                               TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
 

       Background ...............................................................................1
 

       Prior OIG Reports ......................................................................4
 

       OIG Audit Approach ..................................................................5
 

FINDINGS AND RECOMMENDATIONS................................................ 7
 

I. 	RRC COMPLIANCE WITH BOP REQUIREMENTS ............................. 7
 

       Substance Abuse Testing ..........................................................7
 

       Inmate Subsistence Payments ..................................................8
 

       Inmate Accountability .............................................................14
 

       Additional Concerns Regarding Missing or Incomplete 

       Documentation........................................................................23
 

       Other SOW Compliance Matters ..............................................26
 

       Conclusion...............................................................................27
 

       Recommendations...................................................................29
 

II. 	BOP RRC MONITORING ............................................................. 30
 

       Inadequate Subsistence Payment Monitoring and Reporting 

       Requirements ..........................................................................31
 

       BOP Monitoring and Inspections .............................................32
 

       Conclusion...............................................................................34
 

       Recommendations...................................................................34
 
STATEMENT ON INTERNAL CONTROLS............................................ 36
 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 37
 

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS ............ 41
 

APPENDIX III - LIST OF RRC CONTRACTS, PER DIEM RATES, 

AND CAPACITY ............................................................................... 42 


APPENDIX IV - FEDERAL BUREAU OF PRISONS' RESPONSE TO 

THE DRAFT REPORT ........................................................................ 49 


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

REPORT .......................................................................................... 54 

                                   INTRODUCTION 



       The Federal Bureau of Prisons (BOP) utilizes Residential Reentry
Centers (RRCs), commonly known as halfway houses, to transition inmates
into communities prior to their release from incarceration. Inmates
participating in release programming at RRCs remain in federal custody while
serving the remainder of their sentences. At the same time, the inmates are
allowed to work, visit with family members, and engage in a limited range of
activities. According to the BOP, RRCs provide a structured, supervised
environment, along with support in job placement, counseling, and other
services to facilitate successful reentry into the community after
incarceration. RRCs also make it possible for RRC staff and U.S. Probation
Officers to supervise inmate activities during this important readjustment
phase.

Background

The Second Chance Act

      The Second Chance Act, enacted in April 2008, required the BOP to
expand and report on its use of RRCs, as well as other reentry programs.1
Specifically, the Second Chance Act requires the BOP to ensure, to the extent
practicable, that “a prisoner serving a term of imprisonment spends a portion
of the final months of that term (not to exceed 12 months), under conditions
that will afford that prisoner a reasonable opportunity to adjust to and
prepare for the reentry of that prisoner into the community.” According to
the Act, such conditions may include community correctional facilities (RRCs
are considered community correctional facilities). In addition, the Second
Chance Act requires the BOP to report annually the number and percentage
of inmates placed in RRCs during the preceding year, the average length of
such placements, trends in such utilization, the reasons some prisoners are
not placed in RRCs, and any other information that may be useful in
determining if the BOP is utilizing RRCs in an effective manner.

      During fiscal years (FY) 2008 through 2010, the BOP utilized 177 RRC
contracts throughout the United States, as shown in Exhibit 1.




     1
         18 U.S.C. §3624 (2011).



                                        - 1 -

                              EXHIBIT 1 

                NUMBER OF BOP RRC CONTRACTS PER STATE 

                     FROM FYs 2008 THROUGH 2010 





          Source: BOP

      Each RRC is operated by one of 92 contractors to the BOP. The
contractors are paid based on a negotiated daily per diem rate for each
inmate housed at the facility.2 Appendix III provides more detailed
information on the RRC contracts and per diem rates. From
FYs 2008 through 2010, the BOP transitioned almost 90,000 inmates into
RRCs prior to release from incarceration at a cost of about $777.8 million, as
shown in Exhibit 2.




      2
        The RRCs receive 50 percent of the daily per diem rate for inmates placed in home
confinement.



                                          - 2 -

                                EXHIBIT 2 

                RESIDENTIAL REENTRY CENTER FUNDING FROM 

                FYs 2008 THROUGH 2010 (DOLLARS IN MILLIONS)3


                       NO. OF
    FISCAL            INMATES             DIRECT            SUPPORT
     YEAR           TRANSFERRED           COSTS              COSTS4               TOTAL
     2008              29,690           $ 214.0              $ 18.2             $ 232.2
     2009              29,572              244.3                18.2               262.4
     2010              30,305              260.6                22.5               283.1
     Total            89,567             $718.9               $58.9             $777.8
Source: BOP

Contract Requirements

        The Statement of Work for Residential Reentry Centers (SOW), updated
May 2010, is the primary document that outlines all of the BOP’s
requirements for contractors operating RRCs.5 The SOW requires RRCs to
develop individualized program plans for each inmate that focus on, when
applicable, reestablishing relationships with family, obtaining and maintaining
employment, obtaining drug and alcohol abuse treatment, and finding
housing. At the same time each RRC must: (1) be able to locate and verify
the whereabouts of inmates at all times; (2) establish a surveillance program
to deter and detect the illegal introduction of drugs and alcohol into the
facility; (3) effectively discipline inmates; and (4) prepare and maintain
required documentation. Inmates who fail to follow RRC rules may be
returned to a BOP institution. This audit focused on the SOW requirements
related to: (1) inmate programming, (2) inmate accountability, (3) inmate



       3
           Throughout this report, differences in the total amounts are due to rounding.
       4
         Support costs are the costs associated with the BOP Community Corrections staff
that provide direct oversight and administration of the RRC program. This includes contract
monitors, contract oversight specialists, and administrative staff. This also includes the BOP
Community Corrections staff administrative expenses, such as travel to BOP Community
Corrections Management (CCM) offices, mandatory trainings, and office supplies.
       5
         During the period included in our audit, the BOP utilized 13 performance-based
contracts awarded to 8 contractors. The performance-based contracts are not governed by
the SOW; however, many of the SOW requirements are included in the performance-based
contracts. Throughout this report, requirements described as contained in the SOW are also
contained in the 13 performance-based contracts.



                                             - 3 -

discipline, (4) records and reports, (5) inmate escape procedures, and
(6) cost reimbursement.

Prior OIG Reports

      In March 2004, the OIG issued an audit report on the BOP Inmate
Release Preparation and Transitional Reentry Programs.6 The audit
concentrated on whether the BOP ensured that federal inmates received the
maximum benefit from its programs designed to prepare inmates for
successful reentry into society. The audit concluded that each BOP institution
offered similar types of reentry programs that are generally recognized to
reduce recidivism. According to the report, prior studies had found that RRC
placement increases the chances of inmates’ successful transition into
society. However, the audit found that during FYs 2000 through 2002,
between 28 and 54 percent of the institutions reviewed failed to meet their
RRC utilization targets. As a result, the audit concluded that the BOP was not
ensuring that all eligible inmates were provided the opportunity to transition
through an RRC to help prepare them for reentry into society.

       In September 2010, the OIG issued an audit report on the BOP’s
Furlough Program.7 From FYs 2007 through 2009, a total of 85,453 inmates
were furloughed to RRCs. The audit found that the BOP could not readily
provide data associated with furlough-related escapes or information about
crimes committed by furloughed inmates. The audit also found more than
2,600 instances where inmates were released to RRCs with more than 1 year
remaining on their sentence. Additionally, the audit identified 339 inmates
who were released to RRCs with more than 5 years remaining on their
sentences. However, the majority of these instances were caused by data
entry errors in the BOP’s inmate database (SENTRY).8 The audit also
identified issues with tracking furlough-related escape information and
updating SENTRY on inmates’ status, and it recommended implementation of
technological solutions to enhance the accuracy and usefulness of SENTRY.




       6
          U.S. Department of Justice Office of the Inspector General, The Federal Bureau of
Prisons Inmate Release Preparation and Transitional Reentry Programs, Audit Report 04-16
(March 2004).
       7
         U.S. Department of Justice Office of the Inspector General, Audit of the Federal
Bureau of Prisons’ Furlough Program, Audit Report 10-44 (September 2010).
       8
         Developed in-house beginning in the mid-1970s, SENTRY is used to collect,
maintain, and report all inmate information that is critical to the safe and orderly operation
of the BOP facilities.


                                             - 4 -

OIG Audit Approach

      The objectives of the audit were to determine whether: (1) RRC
operations are conducted in compliance with BOP requirements and (2) the
BOP effectively administers and monitors its RRC contracts. The scope of the
audit was FYs 2008 through 2010.

       We conducted audit work at six RRCs in Denver, Colorado (Denver
RRC); Leavenworth, Kansas (Leavenworth RRC); El Paso, Texas (El Paso
RRC); Boston, Massachusetts (Boston RRC); Kansas City, Missouri
(Kansas City RRC); and Washington, D.C. (Washington RRC). We also
interviewed officials at BOP Headquarters responsible for the contract
solicitation and award, and the operation of the RRC program. In addition,
we interviewed officials at the BOP Regional Office in Kansas City, Kansas;
and BOP Contract Oversight Specialists (COS) responsible for monitoring
RRCs and RRC billings in Denver, Colorado; Kansas City, Kansas; and
El Paso, Texas. For comparison purposes, throughout this audit, it should be
noted that the six RRCs reviewed varied in size. The bed capacities for each
of the six RRCs are shown in Exhibit 3.

                              EXHIBIT 3 

               BED CAPACITIES FOR THE SIX RRCS AUDITED9


                            FACILITY                   BED CAPACITY
                   Denver RRC                                 85
                   Leavenworth RRC                            55
                   El Paso RRC                              132
                   Boston RRC                                 88
                   Washington RRC                           140
                   Kansas City RRC                            90
                             Total                          590
              Source: BOP



      9
           The audited Washington RRC operated under two contracts. The BOP needed to
expand the bed capacity in Washington, D.C. and chose to award a second contract rather
than amending the original contract. The audited Washington RRC corresponds to the two
Washington RRCs listed in Appendix III with bed capacities of 75 and 65. Although the
audited Washington RRC operated under two contracts, it was managed as one facility with
one facility director.



                                          - 5 -

      To determine whether RRCs are operating in compliance with BOP
requirements, we selected a judgmental sample of 177 inmates out of the
8,736 inmates who were transferred to the 6 RRCs reviewed, from
FYs 2008 through 2010, and reviewed all related documentation.10 We also
reviewed at least 3 months of RRC billings submitted to the BOP for each of
the six RRCs.

      Finally, to determine whether the BOP ensures the RRCs are operating
in compliance with BOP requirements, we reviewed the BOP’s FY 2010 full
monitoring reports for all 177 RRC contracts and all BOP monitoring reports
from FYs 2008 through 2010 for the 6 RRCs reviewed.11 Appendix I contains
a more detailed description of our audit objectives, scope, and methodology.




       10
          Generally, 50 percent of our sample included escaped inmates and the remaining
50 percent was selected randomly from the remaining inmates included in the scope of our
audit. However, in some instances there were not enough escaped inmates during the
period to make up 50 percent of the sample, in which case we randomly selected additional
inmates from the remaining non-escapees. As a result, our sample intentionally included a
disproportionally higher number of escaped inmates than the 3 percent average number of
escapes from all RRCs during the period reviewed.
       11
         A full monitoring report is a comprehensive review by the BOP of all aspects of an
RRC’s operation and facility.



                                           - 6 -

                  FINDINGS AND RECOMMENDATIONS 


I.     RRC COMPLIANCE WITH BOP REQUIREMENTS

       The RRCs are required to assist inmates in successfully
       transitioning back into society through program planning,
       accountability procedures, and effective inmate discipline. While
       the six RRCs we reviewed adequately met most of the SOW
       requirements, we found that all six RRCs did not fully comply with
       the SOW or the purpose of the RRC program related to substance
       abuse testing, inmate subsistence payments, escapes, and
       authorized inmate absences. These conditions risk undermining
       important goals of the RRC and thus increase the probability that
       inmates will not successfully transition back into society. We also
       identified issues related to incomplete or missing documentation
       that we believe as a whole represent a concern that the six RRCs
       cannot always ensure that SOW requirements are being met
       related to: (1) inmate passes, (2) approval and documentation
       of authorized inmate absences, (3) inmate and official visitors,
       (4) inmate employment, and (5) maintaining inmate files. In
       addition, we identified areas that were not sufficiently addressed
       in the SOW related to collecting, documenting, and reporting
       inmate subsistence payments; procedures for technical escapes;
       disciplinary requirements for escapes; timeframes for
       implementing escape procedures; and timeframes for reporting
       unaccounted for inmates as escaped.

       The findings related to the collection, reporting and documentation of
subsistence payments were limited to the Denver, Boston, and Kansas City
RRCs because of poor internal controls related to inmate subsistence
payments. In addition, we did not identify any deficiencies related to
substance abuse testing at the El Paso RRC and we did not identify any
deficiencies related to escapes at the Washington RRC.12

Substance Abuse Testing

       In order to deter and detect the illegal introduction of drugs and alcohol
into the facility, RRCs must randomly test at least 5 percent of all inmates for
drugs and alcohol monthly, with a minimum of one inmate tested per month.


       12
          It should be noted that, the current Boston and Kansas City RRC facility directors
explained that the majority of findings attributed to their facilities were a result of the
previous RRC staff, who were replaced in February 2011 and November 2009, respectively.



                                            - 7 -

An inmate known to have a history of drug abuse, or who is suspected of
illegal drug use, must be tested no less than 4 times per month. RRCs must
also give inmates breathalyzer tests every time they return to the facility
from an unsupervised activity.

      During our review of 177 inmate files, we identified 123 inmates who
had histories of substance abuse and were required to be given drug tests at
least 4 times per month. We found that for 37 of these inmates
(30 percent), the RRCs did not have documentation showing that the inmates
were given one of the four required monthly drug tests. However, we did not
find any instances of inmates missing more than one drug test during a
1-month period or any instances of inmates missing a drug test in more than
1 month.

       We also found that the Denver RRC did not administer breathalyzer
tests to all inmates returning to the facility from unsupervised activities.
Instead, the RRC selectively administered the breathalyzer tests to a sample
of inmates. The Denver RRC facility director believed that it would be
problematic for them to administer the required breathalyzer test on every
returning inmate due to the high volume of traffic from departing and
returning inmates. However, this policy is in violation of the SOW
requirements.

      The missing drug testing and the Denver RRC’s failure to conduct all
required alcohol testing could result in the RRCs and BOP not identifying
inmates who have relapsed and not addressing substance abuse problems in
a timely manner. As a result, we recommend that the BOP enhance its
monitoring procedures to ensure that the RRCs perform all required drug and
breathalyzer tests.

Inmate Subsistence Payments

      To promote financial responsibility the BOP requires inmates to make
subsistence payments to RRCs each payday to help defray the cost of their
confinement. Most inmates are required to pay 25 percent of their gross
income, not to exceed the per diem rate for the contract. Inmates who have
other means of financial support (sale of property, Veteran’s Administration
benefits, worker’s compensation, retirement income, or Social Security) must
also contribute 25 percent of their determined weekly income. In cases of
hardship, an RRC may request the BOP Community Corrections Management
(CCM) office to waive or modify an inmate’s required subsistence payments.13

       13
          BOP CCMs are responsible for all functions, programs, and services related to
RRCs, including monitoring the RRCs for compliance with the SOW.


                                           - 8 -

An inmate is not released from the subsistence payment responsibilities for
being away on passes, furlough, or home confinement. RRCs are responsible
for collecting the full subsistence payments due and providing the inmate
with receipts for all subsistence payments collected. The receipt must
indicate the amount collected, gross income, and time period covered. In
addition, the RRCs are required to reduce monthly billings by the amount of
subsistence payments collected, thus reducing the BOP’s cost for the RRC
program.

      As discussed in the following sections, we found that the Denver,
Boston, and Kansas City RRCs (half of the RRCs included in our audit)
substantially failed to comply with subsistence payment collection,
documentation, and reporting requirements of the SOW.

Inmate Subsistence Not Collected

       At the Denver RRC we analyzed all subsistence payments for
FYs 2008 through 2010. We found that the Denver RRC failed to collect
$80,255 (13 percent) of the $604,512 required subsistence payments for the
period reviewed. Instead, and in violation of the SOW, the Denver RRC
allowed inmates to maintain a running balance of subsistence payments owed
and required inmates to sign promissory notes for uncollected subsistence
payments when the inmate was released from the facility. Our testing
indicated that during FYs 2008 through 2010, the Denver RRC initially failed
to collect subsistence payments totaling $86,656, but subsequently collected
$6,401 on the promissory notes from inmates released from the RRC,
resulting questioned costs of $80,255 related to subsistence payments not
collected from inmates. Denver RRC officials stated that the main reason full
subsistence payments were not collected from inmates was that inmates did
not have enough money in their savings to cover the subsistence payments
owed. However, subsequent to our fieldwork, the Denver RRC revised its
policy related to subsistence payments as of January 1, 2011. According to
its new policy, inmates are now required to make full subsistence payments
when they are due.

      At the Boston RRC we analyzed subsistence payments for the 3 months
included in our sample.14 We found that the Boston RRC failed to collect
85 subsistence payments, which equates to 14 percent of the subsistence
payments reviewed. However, we were unable to calculate the amount of
subsistence payments that were not collected because the Boston RRC did

      14
          We did not review all subsistence payments at the Boston RRC for
FYs 2008 through 2010 because inadequate documentation and record keeping prevented us
from calculating the actual amounts of subsistence that were not collected.



                                        - 9 -

not maintain sufficient documentation. We also noted five instances for
which the Boston RRC did not collect the full subsistence payments, resulting
in questioned costs totaling $1,046. Subsequent to our fieldwork, the BOP
remedied $830 of these questioned costs by reducing the Boston RRC’s
May 2011 invoice by $830, resulting in remaining questioned costs of $216.
The Boston RRC officials attributed the problems related to the collection of
subsistence payments to previous management. However, since the change
in management occurred only 3 weeks prior to our site work, we were unable
to determine if the new management has corrected or will correct the issues
related to the collection and reporting of subsistence payments.

       At the Kansas City RRC, we analyzed 909 subsistence payments for
June through November 2008, as well as 111 subsistence payments for the
26 inmates required to make subsistence payments that were included in our
sample.15 Based on our review of subsistence payment receipts for June
through November 2008, we found that full subsistence payments were not
collected for 128 (14 percent) of the 909 subsistence payments reviewed
from June through November 2008. However, we also found that excess
subsistence payments were collected for 110 (12 percent) of the 909 total
payments reviewed. As a result, we identified net questioned costs related to
subsistence payments that were not collected totaling $1,824.16 From the
26 inmates included in our sample, we also identified 10 additional instances
(9 percent) out of the 111 subsistence payments reviewed for which the
Kansas City RRC did not collect full subsistence payments, resulting in
additional questioned costs totaling $258. The Kansas City RRC attributes
this deficiency to bad bookkeeping by an RRC staff member who was
replaced in 2008. However, we found that beginning in December 2008, the
RRC failed to record the inmates’ gross pay on the subsistence payment
receipts; as a result, we could not calculate the amount of subsistence
payments that should have been made from December 2008 through
September 2010.

      It is difficult for RRCs to collect previously owed subsistence payments
from inmates once they have been released. In recognition of this fact, the
BOP requires RRCs to collect full subsistence payments from inmates when
      15
           We did not review all subsistence payments at the Kansas City RRC for
November 2007 (when the facility opened) through May 2008, and for FYs 2009 through
2010 because inadequate documentation prevented us from calculating the actual amounts
of subsistence that were not collected.
      16
         Due to the poor recordkeeping at the Kansas City RRC, we were unable to
determine whether the overpayments were an attempt to collect past due subsistence or if
the RRC actually collected subsistence payments in excess of the amount due from the
inmate. As a result, we netted the overpayments and underpayments to determine the total
questioned costs.


                                         - 10 ­
they are due, and it subjects inmates who fail to make required subsistence
payments to disciplinary action, including being returned to a BOP facility. In
light of these requirements, we believe that the RRCs should not have
allowed inmates to maintain a running balance of subsistence payments owed
to the RRC, but rather the RRCs should have made every effort to collect full
subsistence payments when they were due.

Not Reporting Collected Subsistence Payments

       We also found that the Denver, Boston, and Kansas City RRCs, failed to
report all subsistence payments collected to the BOP. The Denver RRC failed
to report $1,849 of the total subsistence payments collected from inmates
after they were released. The Kansas City RRC did not maintain adequate
documentation related to subsistence payments collected for November 2007
through May 2008, and for December 2008 through September 2010.
However, based on a reconciliation conducted by the Kansas City RRC for
FY 2008, we found that the Kansas City RRC failed to report $2,851 of the
total subsistence payments collected during that period. We also identified
one instance of the Boston RRC collecting $56 in subsistence payments from
an inmate that was not reported to the BOP. In total, this resulted in the
RRCs being double paid for the amounts collected that were not reported,
resulting in questioned costs of $4,756.

Inadequate Subsistence Payment Procedures and Documentation

      In addition to the subsistence payments that were not collected or not
reported to the BOP, we found that the Denver, Boston, and Kansas City
RRCs did not have adequate procedures for collecting required subsistence
payments from the inmates. As stated previously, at the Denver RRC we
found that inmates were allowed to maintain a running balance of
subsistence payments owed and that the Denver RRC required inmates to
sign promissory notes for uncollected subsistence payments when the inmate
was released from the facility.

       At the Boston RRC, we found that subsistence payments were only
collected 1 day per week, and that each inmate was only required to make
subsistence payments on the designated day that corresponded with the
inmate’s pay period. For example, if an inmate was paid biweekly, the
inmate was only required to report on the designated subsistence payments
collection day every other week corresponding with the inmate’s pay period.
Following this practice, it is possible that inmates were not required to make
subsistence payments for up to 6 days after receiving a paycheck, increasing
the possibility that the inmate had already spent his or her income before the
RRC attempted to collect subsistence payments. In addition, if an inmate did


                                    - 11 ­
not make the required amount of subsistence payments on the designated
collection day, the inmate was instructed to wait until the following
designated subsistence payments collection day to pay the past due amount.
In this situation, the RRC noted that the inmate did not make a subsistence
payment; however, it did not track the subsistence payment that should have
been made or maintain a copy of the inmate’s pay stub. Further, if the
inmate made subsistence payments on the next designated day for the
current pay period but not the previous pay period, no further actions were
taken to collect the previously unpaid subsistence payment.

      We also found that the Boston RRC rejected an inmate’s attempt to
make subsistence payments if the inmate’s money order was for an incorrect
amount or included change, since subsistence payments are supposed to be
rounded down to the nearest dollar amount. Again, if the inmate’s attempted
subsistence payment was rejected, the inmate was instructed to pay the
correct amount on the next designated subsistence payments collection day
and no record was maintained to document how much past due subsistence
payments were owed by the inmate. This practice resulted in inmates
spending money that should have been used to make subsistence payments,
rather than making the required subsistence payment on the next scheduled
subsistence payment collection day. Boston RRC officials stated that this
practice was a result of its corporate policy. In our judgment, RRCs should
not refuse money from inmates for subsistence payments when it is owed,
even when the amount proffered is less than the total owed, because
refusing a payment increases the probability that the inmate will spend the
money rather than make the required subsistence payment at a later date.

       We also identified nine instances prior to June 2010 when the Boston
RRC collected excess prorated assistance prior to inmates leaving the facility.
The SOW requires RRCs to collect an inmate’s last week of subsistence
payment in advance of the inmate’s departure from the facility. The
Boston RRC was collecting advanced subsistence payments for 20 to 32 days
prior to the inmate leaving the facility. According to Boston RRC officials, the
BOP identified this issue during one of its monitoring reviews and verbally
informed the Boston RRC of the deficiency. However, this deficiency was not
mentioned in any BOP monitoring report for the facility. In response to the
deficiency, the Boston RRC stopped collecting prorated subsistence payments
from inmates prior to their departures from the facility in June 2010, which
resulted in the BOP being overbilled by the amount of subsistence payments
not collected. Because of the Boston RRC’s inadequate records related to
subsistence payments, we were unable to determine the amount of prorated
subsistence payments that were not collected.




                                     - 12 ­
      At the Kansas City RRC, we found that inmates were allowed to make
subsistence payments for multiple paychecks, rather than collecting
subsistence payments immediately after the inmate was paid. Like the
Denver RRC’s policy of allowing running balances and the Boston RRC’s policy
of refusing payments in the wrong amount, this policy increases the
probability that the inmate will spend the money owed before the subsistence
payment is collected. In addition, although the Kansas City RRC accepted
partial subsistence, rather than refusing payments for incorrect amounts like
the Boston RRC, Kansas City RRC personnel stated that when partial
subsistence payments were made, inmates were required to pay the
remaining balance within 24 hours. However, our audit found that the
Kansas City RRC failed to follow its own policy of collecting the remaining
subsistence payment balance within 24 hours, for all 10 instances we
reviewed where inmate’s made partial payments.

       For all three RRCs, we identified a total of $87,309 in questioned costs
which should have been used to reduce the BOP’s RRC program costs. These
questioned costs related to subsistence payments that were not collected or
were not reported to the BOP on the monthly billings and deducted from the
total invoice amount. However, this amount does not accurately reflect the
total questioned costs related to subsistence payments at the three RRCs
because the Boston and Kansas City RRCs generally did not maintain
sufficient documentation for us to calculate the amounts that were not
collected or reported. In addition, we were unable to accurately project the
total questioned costs related to the RRC program as a whole because of the
lack of documentation prevented a statistically valid sample. The three RRCs’
failure to collect and report the required subsistence payments resulted in
increased costs for the BOP’s RRC program since subsistence payments are
used to reduce the amount of per diem paid to the RRC contractors. As a
result, we recommend that the BOP remedy the $87,309 questioned costs
related to subsistence payments.

      We also noted multiple deficiencies at the Denver, Boston, and
Kansas City RRCs related to the collection, documentation, and reporting of
subsistence payments. The primary mission of the RRC program is to enable
inmates to obtain the skills necessary to transition into society. In our
judgment, not consistently enforcing the subsistence payment requirements
risks undermining the goal of teaching the inmates financial responsibility,
which is a critical skill necessary for the inmates’ to successfully transition
back into the community. In addition, the RRCs’ deficiencies with respect to
subsistence payments increased the cost of the RRC program to the BOP, as
the BOP’s costs are directly increased by any amounts of subsistence
payments that are not collected or not reported by the RRCs.



                                    - 13 ­
      We therefore recommend that the BOP modify the SOW to provide
detailed procedures for collecting, reporting, and documenting subsistence
payments. These procedures should include guidance about the
circumstances under which overpayments may be accepted and requirements
that RRCs: (1) collect full subsistence payments immediately after the
inmate is paid, (2) not refuse money from inmates for subsistence payments
when it is owed, even when the amount proffered is less than the total owed,
(3) establish a process for accurately tracking subsistence payments owed
and timeframes for obtaining full subsistence payments if a partial payment
is provided, and (4) report inmates to the BOP who have not made
subsistence payments or the full subsistence payments within the established
timeframes.

Inmate Accountability

       RRCs must be able to locate and verify the whereabouts of inmates at
all times. Written procedures must be established by the RRC to guide its
staff in meeting this requirement. RRCs must contact the inmate either by
telephone or in-person at random times at work, at home, or at authorized
destinations to maintain accountability. The RRC must conduct these checks
at a frequency that ensures accountability and commensurate with the
accountability risks of each individual inmate. If an inmate cannot be
located, the RRCs are required to implement escape procedures, which
include searching the facility, and contacting individuals and places where the
inmate may be located (such as family, work, police stations, and hospitals).
If the inmate has still not been found, the RRC is required to notify the BOP,
who in turn notifies the USMS of the escape. The USMS is then responsible
for attempting to locate the escaped inmate.

Escapes

      There are three categories of escapes from RRCs: (1) regular escapes,
(2) technical new escapes, and (3) technical old escapes. A regular escape is
when an inmate fails to remain in the custody of an RRC by:

   	 not reporting to the facility for admission at the scheduled time;

   	 not remaining at the approved place of employment, training, or
      treatment during the hours specified by the terms of the employment,
      training, or treatment program;

   	 not returning to the facility at the time prescribed;




                                     - 14 ­
   	 not returning from an authorized furlough or pass at the time and place
      stipulated;

   	 not abiding by conditions of employment, or curfew conditions of home
      confinement; or

   	 leaving the facility without permission from RRC staff.

      A technical new escape is when an inmate fails to remain in the custody
of an RRC by being arrested on a new charge. One example of a technical
new escape is when an inmate, residing at an RRC, is arrested for shoplifting
during their lunch break at work.

      A technical old escape is when an inmate fails to remain in the custody
of an RRC by being arrested on an outstanding warrant while residing at an
RRC. Normally regulations require that an inmate with outstanding warrants
be transferred to the authorities within the jurisdiction where the inmate has
an outstanding warrant after the inmate’s completion of their sentence at a
BOP institution. Low level crimes, however, are often not reported to the
BOP. The most common example of inmates being arrested for outstanding
warrants occurs when the inmate goes to obtain a new driver’s license, and
the inmate is then arrested on an outstanding traffic violation.

      For FYs 2008 through 2010, 2,303 inmates escaped from RRCs, which
is approximately 3 percent of the 89,567 inmates transferred to RRCs during
the same period. The 2,303 escapes from RRC during FYs 2008 through
2010, included 1,735 regular escapes (75 percent), 293 technical new
escapes (13 percent), and 275 technical old escapes (12 percent).

       The SOW states that when an inmate fails to return to the facility at the
required time, the RRC officials should initiate escape procedures, and that
these procedures should ordinarily take no longer than 20 minutes to
complete. However, the SOW does not specify a timeframe for when RRCs’
should initiate escape procedures, if an inmate fails to return at the required
time. If all efforts to locate the inmate fail, the inmate is considered an
escapee and the RRC facility director must immediately notify the BOP CCM
office. RRC officials stated that they typically allow up to 2 hours before
reporting inmate escapes, because the RRCs generally allow some time for
the inmate to return to the facility before initiating escape procedures. Once
an inmate is placed on escape status, the RRC must prepare an incident
report and conduct a disciplinary hearing.




                                     - 15 ­
       Of the 177 inmate files we reviewed at the 6 RRCs, 88 were related to
escapes. The 88 escapes included in our sample consisted of 70 regular
escapes (79 percent), 12 technical new escapes (14 percent), and 6 technical
old escapes (7 percent).17 The length of escape before the inmate was
apprehended ranged from 1 day to 901 days, and 53 percent of the inmates
were not apprehended until more than 10 days after the escape was
reported. As of December 2011, 3 of the 88 escaped inmates were still on
escape status, all of whom had been reported to the USMS. We found that
28 of the 88 escaped inmates (32 percent) were not given the required
disciplinary hearings for the escape, as shown in Exhibit 4.18

                               EXHIBIT 4 

                 ESCAPES WITHOUT DISCIPLINARY HEARINGS





            Source: Data collected from fieldwork at RRCs




       17
           Our sample purposely included a higher percentage of regular escapes and
technical new escapes, and a lower percentage of technical old escapes than the averages
for all RRCs during FYs 2008 through 2010 because technical old escapes are related to
inmates arrested on a prior outstanding warrant while residing at an RRC. Therefore,
technical old escapes are not related to the inmates’ actions while residing at the RRC.
       18
          This includes 18 regular escapes, 7 technical new escapes, and 3 technical old
escapes. In addition, as of December 2011, 3 of the 28 escaped inmates for which the RRC
had not conducted the required disciplinary hearing were still on escape status. However, to
meet the requirements of the SOW, the RRCs should have held the disciplinary hearing in
absentia. The inmate’s presence is not required for the disciplinary hearing in the event that
the inmate has not yet been apprehended.



                                           - 16 ­
       The Denver RRC facility director commented that one of its escapes
without a disciplinary hearing was because action was taken by the inmate’s
assigned probation officer, and therefore the RRC chose not to hold a
disciplinary hearing. The Denver RRC facility director believes it is possible
the second missing escape without a disciplinary hearing was due to the
document being stored electronically and corrupted or deleted during a
transfer of data. The Leavenworth RRC facility director was unable to provide
an explanation for their five escapes without disciplinary hearings. Both the
current Boston and Kansas City RRC facility directors explained that the
escapes that did not result in a disciplinary hearing were a result of the
previous RRC staff, who have since been replaced. As a result, we
recommend that the BOP enhance its monitoring procedures to ensure that
RRCs hold required disciplinary hearings for escapes.

      We also reviewed all 299 escape reports related to inmates who
escaped from the six RRCs reviewed during our audit scope, to verify that the
RRCs notified the BOP. We found that the BOP did not have escape reports
for 57 escapes (19 percent). BOP officials from both regional and CCM offices
explained that escape reports were not provided for 42 of these escapes
because they were technical escapes, that is, the inmates were already in
police custody by the time an escape report was required. For the remaining
15 instances (5 percent), the BOP was unable to provide an explanation for
the missing reports. Without escape reports, the BOP is missing key
information related to inmate statistics that may be used in determining
whether RRC inmate accountability procedures are adequate. As a result, we
recommend that the BOP ensure that required escape reports are being filed
by BOP CCM offices for all escapes.

       In addition, we found that although the SOW does not distinguish
between regular, technical new, and technical old escapes, during our review
we noted that it is common practice for the BOP and RRCs to treat the
different types of escapes differently. For example, we found 42 instances of
technical new and technical old escapes not reported as escapes to the BOP
because the inmates were already in police custody at the time they were
found by the RRC. As mentioned above, the Denver RRC facility director also
explained that for one technical escape the RRC took no disciplinary action
because the inmate’s probation officer disciplined the inmate. However, in
our judgment, the BOP should ensure reports are provided for all escapes,
including technical escapes, so that it has an accurate record of the types of
escapes that are occurring.

     Finally, for the six RRCs we reviewed, we found that the average
amount of time BOP officials took to report escaped inmates to the USMS was
15.25 hours, ranging from 3 minutes to 4.17 days. We also found that the


                                    - 17 ­
BOP is not following its established procedures and timeframes for reporting
escapes immediately to the USMS. In our judgment, the BOP’s delay in
reporting escaped inmates to the USMS can increase the risk that the
escapees will not be apprehended. As a result, we recommend that the BOP
ensure that its procedures for immediately reporting escapes to the USMS
are followed.

      We also found that for two inmates who were ultimately reported as
escapees, when the inmates failed to return to the El Paso RRC at the
approved time, the facility director granted the inmates a 2-hour extension
without contacting the inmates to determine if they were late for a valid
reason. As stated previously, the SOW stipulates that if an inmate fails to
return to an RRC on time, RRC staff must attempt to locate the inmate, which
includes searching the RRC, as well as calling local hospitals, police stations,
and known friends and family members. Yet the RRC did not start escape
procedures until the inmates failed to return to the RRC after the extended
2-hour period of time. This caused a delay of 2 hours in RRC staff attempting
to locate the inmates, and a commensurate delay in RRC staff reporting the
inmates as escapees to the BOP. Although both inmates were subsequently
apprehended and returned to BOP custody, one inmate was on escape status
for 53 days and the other was on escape status for 303 days.

Authorized Inmate Absences

        RRCs can only authorize an inmate to leave the facility through
sign-out procedures and only for an approved program activity. Approved
program activities typically include job searches, employment, religious
services, and visitations with family and friends. Other than for employment
or programming activities, such as drug abuse counseling, an inmate must
generally be at the RRC facility from 9:00 p.m. to 6:00 a.m. unless the
facility director has granted an exception. However, RRCs can also utilize
passes or furloughs to release inmates overnight, or to travel distances of
more than 100 miles.

       During authorized absences, the RRC is still responsible for inmate
accountability. The RRC must have written procedures for inmate
accountability that include authorized absences for job searches, work,
religious services, programming activities, social passes, furloughs, and
placement on home confinement. The SOW stipulates than if an inmate fails
to return to an RRC on time, RRC staff must initiate escape procedures. The
SOW states this process should ordinarily take no more than 20 minutes.

      We examined all authorized absences, as well as all passes, for the
177 inmates included in our sample. We found that for 434 authorized


                                     - 18 ­
absences, related to 92 of the 177 inmates (52 percent), the inmate returned
to the RRC more than 1 hour after the approved return time. For 296 of
these 434 authorized absences for which the inmate returned more than
1 hour late, a reason, such as a transportation delay, was provided in the
log. However, for the remaining 138 instances, related to 71 inmates for
which the inmate was more than 1 hour late, no reason for the delay was
documented. Exhibit 5 shows a breakdown by RRC of the 138 authorized
absences for which the inmate was more than 1 hour late and no reason for
the delay was documented.

                          EXHIBIT 5 

           NUMBER OF AUTHORIZED ABSENCES FOR WHICH 

            INMATES RETURNED MORE THAN 1 HOUR LATE 

              WITHOUT AN EXPLANATION BY THE RRC





         Source: Data collected from fieldwork at RRCs

      We also found that disciplinary actions were not taken or not
documented for 65 of the 71 inmates (92 percent) that arrived more than
1 hour late without a documented reason for the delay. In addition, we
found that 33 of the 71 inmates (46 percent) had multiple incidents of
returning from authorized absences more than 1 hour without a documented
explanation. Nonetheless, 28 of the 33 inmates (85 percent) were never
formally disciplined. Exhibit 6 shows the distribution of the number of
incidents per inmate returning more than 1 hour late from approved
absences without a reason for the delay.




                                       - 19 ­
                          EXHIBIT 6 

      FREQUENCY OF INDIVIDUAL INMATES RETURNING FROM 

        AUTHORIZED ABSENCES MORE THAN ONE HOUR LATE 

                    WITHOUT AN EXPLANATION

   NUMBER OF INCIDENTS                 TOTAL NUMBER INCIDENTS
   RETURNING MORE THAN    NUMBER OF     RETURNING MORE THAN
       1 HOUR LATE         INMATES           1 HOUR LATE
                6                           1                  6
                5                           4                20
                4                           3                12
                3                          12                36
                2                          13                26
                1                          38                38
                                          71                138
Source: Data collected from fieldwork at RRCs

      We also found that disciplinary actions were not taken or not
documented for 65 of the 71 (92 percent) inmates that arrived more than
1 hour late without a documented reason for the delay, despite the fact that
33 of these 71 inmates (46 percent) had multiple incidents of returning from
authorized absences more than 1 hour without a documented explanation.
Inmate accountability is vital to the role RRCs play in transitioning inmates
into society after their incarceration within a BOP institution. One of the
primary reasons that inmates are transitioned through RRCs is to teach the
inmates the responsibility necessary to work and function in society,
including timeliness. Inmates who demonstrate consistent accountability
problems are failing to meet this primary objective of the RRC program. In
our judgment, RRCs that allow inmates to return to the facility over 1 hour
late without documenting the reason for the delay and initiating disciplinary
procedures demonstrate a failure to comply with the SOW accountability
requirements related to approved inmate absences.

       We also found that the SOW does not adequately address the types of
disciplinary action that should be taken when inmates are significantly late
returning to the facility without providing a legitimate excuse. Overall, we
found that disciplinary action was only formally taken for 6 of the 71 inmates
(8 percent) that returned to the RRC more than 1 hour after the approved
return time without a documented reason for the delay. The facility directors
at the six RRCs we visited emphasized that the disciplinary action given to
inmates is uniquely chosen based upon what the RRCs’ staff believes would
be best to improve an inmate’s behavior. While some inmates may only


                                          - 20 ­
respond to formal disciplinary hearings, others may require only informal
verbal warnings. However, we believe the lack of uniformity with regard to
inmate lateness is an area of concern. The purpose of the RRC program is to
teach inmates the skills necessary to successfully transition into society after
incarceration and demonstrating responsibility through timeliness is an
integral part of the RRC program. For example, in order to successfully
maintain employment, it is necessary to arrive for work on time. The RRCs’
failures to formally discipline inmates who are significantly late, especially
inmates with multiple infractions, could result in the inmates not being taught
this vital skill. As a result, we recommend that the BOP create uniform
formal disciplinary procedure for inmates who return significantly late to the
RRC on multiple occasions without an excuse, such as a late bus, and that
the procedure include definitions of what is considered significantly late.

      RRC officials stated that they typically allow up to 2 hours before
reporting inmate escapes, because the RRCs generally allow some time for
the inmate to return to the facility before initiating escape procedures. The
SOW does not specify a timeframe for when RRCs should initiate escape
procedures, if an inmate fails to return at the required time. Using the longer
timeframes estimated by RRC officials, we identified 208 authorized
absences, related to 63 of the 177 inmates (36 percent) in our sample, for
which the inmate was more than 2 hours late. For 153 of the 208 authorized
absences (74 percent), the RRC provided an excuse in its log, such as a
transportation delay. However, for the remaining 55 authorized absences
related to 36 of the 177 inmates (20 percent), the RRC provided no reason
for the delay, and therefore these incidents should have been but were not
reported to the BOP as escapes. These 55 authorized absences for which
inmates were more than 2 hours late without an explanation from the RRC
are shown in Exhibit 7.




                                     - 21 ­
                          EXHIBIT 7 

           NUMBER OF AUTHORIZED ABSENCES FOR WHICH 

           INMATES RETURNED MORE THAN 2 HOURS LATE

               WITHOUT AN EXPLANATION BY RRC 





         Source: Data collected from fieldwork at RRCs

       As stated previously, the SOW states that when an inmate fails to
return to the facility at the required time, the RRC officials should initiate
escape procedures, and that these procedures should ordinarily take no
longer than 20 minutes to complete. The SOW further states that, if all
efforts to locate the inmate fail, the inmate is considered an escapee and the
RRC facility director must immediately notify the BOP CCM office. This
criterion appears to imply that escape procedures should be initiated the
minute an inmate is late and that after the 20 minutes allotted for completing
the escape procedures, the inmate should be reported as an escapee.
However, RRC officials stated that they typically allow up to 2 hours before
reporting inmate escapes, because the RRCs generally allow some time for
the inmate to return to the facility before initiating escape procedures. We
found that the SOW does not adequately address how long an RRC should
wait before implementing escape procedures or reporting inmates as
escapees. As a result, there is an inconsistency among RRCs and even
between incidents within an RRC on how these issues are addressed.
Therefore, we recommend that the BOP create specific guidelines for
determining when to report an inmate as having escaped, including how long
RRCs should wait for an inmate to return before implementing escape
procedures, and that RRCs should document the reasons for the delay if the
inmate subsequently returns to the facility.




                                        - 22 ­
Additional Concerns Regarding Missing or Incomplete Documentation

       The SOW requires that “[a]ll records related to contract performance
will be retained in a retrievable format for the duration of the contract.” The
SOW also requires that the RRC “will document that all requirements of [the
SOW] are being met.” During our review of the six RRCs included in the
audit, we identified additional concerns related to documenting compliance
with the SOW that as a whole raise the concern that the RRCs cannot ensure
compliance with SOW requirements related to: (1) inmate passes,
(2) inmate sign-out and sign-in logs, (3) visitor sign-in and sign-out logs,
(4) inmate employment, and (5) inmate files. As a result, we recommend
that the BOP enhance its monitoring procedures to ensure that RRCs
maintain complete and accurate documentation related to the performance of
SOW requirements.

Inmate Passes

      Pursuant to the SOW, passes may be used by RRCs for approved
inmate absences overnight and on weekends, ordinarily to the inmate’s
release residence. Overnight or weekend absences are limited to the local
community, up to a 100-mile radius. A pass may be approved by the RRC if
an inmate is successfully completing their programming.

      For purposes of accountability, the RRCs perform and document
random inmate checks to determine compliance with the conditions of the
pass. These checks may be made by telephone or in-person unless
otherwise specified by the BOP CCM office. Such checks must occur at least
twice a day. The intent is to set a frequency that provides for appropriate
inmate accountability.

       We reviewed 112 overnight and weekend passes for the inmates
included in our sample. We found for 24 of the inmate passes reviewed
(21 percent) the RRC failed to make or failed to document the required twice
daily checks.

Inmates Sign-Out and Sign-In Logs

        Pursuant to the SOW, documentation of an inmate’s movement in and
out of RRCs must include, at a minimum: inmate’s signature and staff
initials, the inmate’s full name and register number, type of inmate, method
of transportation, work contact information, pass site contact information,
time out, destination, purpose, authorized return time, time in, and a section
for special comments.



                                    - 23 ­
     During our review of the 14,483 authorized inmate absences for the
inmates included in our sample, we found that the sign-out and sign-in logs
were missing:19

   	 1,351 (9 percent) inmate signatures;

   	 1,300 (9 percent) employee initials approving inmates to leave the
      RRC;

   	 815 (6 percent) inmate register numbers; and

   	 a combined total of 273 miscellaneous items, including the purpose,
      actual return times, stipulated return times, departure times, and
      destinations.

Visitor Sign-In and Sign-Out Logs

       RRCs are required to identify and document all individuals entering or
exiting the facility by using a sign-in and sign-out system, including the
visitor’s name, organization, purpose, and times in and out of the facility.

      We examined 3 months of visitor logs for each RRC reviewed, totaling
3,158 authorized visitors, and found that the entries in the visitor sign-in and
sign-out logs were frequently incomplete. Specifically, we found that sign-in
and sign-out logs for the authorized visitors were missing:20

   	 722 (23 percent) visitor departure times;

   	 268 (8 percent) visitor arrival times; and

   	 a combined total of 15 miscellaneous items, including missing visitor
      purposes, organizations, and names.




      19
           In some instances, multiple elements were not documented in the sign-out and
sign-in log for a single authorized absence.
      20
           In some instances, multiple elements were not documented in the sign-out and
sign-in log for a single authorized visitor.



                                          - 24 ­
Inmate Employment

      Ordinarily, inmates are expected to be employed 40 hours a week
within 15 calendar days after their arrival at the RRC.21 RRCs are required to
have staff available to assist inmates in obtaining employment through a
network of local employers, employment job fairs, and training classes in
resumé writing and interview techniques. For each job an inmate acquires,
the RRC must verify employment by an on-site visit during the first
7 calendar days. Thereafter, at least monthly, the RRC is required to contact
the inmate’s employment supervisor by phone or site visit to substantiate
attendance and discuss any problems which may have arisen.

      During our review of 177 inmate files, we identified 95 inmates
(54 percent) that were employed during their time at an RRC. Of those
95 inmates, we identified 17 inmates (18 percent) for which the RRCs did not
conduct the required employment verifications during the inmate’s first week
of employment and 20 inmates (21 percent) for which the RRC did not
always conduct the required monthly employment verifications subsequent to
the initial check. The majority of the missing employment verifications
(30 of 37) were at the Boston and Kansas City RRCs.

      We also identified four inmates (4 percent) for which written RRC
approval for employment was not found in the inmates’ case files. All four
inmates were from the Boston and Kansas City RRCs.22 As previously stated,
the current Boston and Kansas City RRC facility directors explained that the
majority of findings attributed to their facilities were a result of the previous
RRC staff, who were replaced in February 2011 and November 2009,
respectively.




       21
          The RRC facility directors stated that due to the poor economy it is taking longer
for inmates to obtain employment and some inmates are unable to obtain employment while
at the RRCs.
       22
         The Kansas City RRC was responsible for three of the instances, and the Boston
RRC was responsible for one of the instances.


                                          - 25 ­
Inmate Files

      RRCs must maintain a file on each inmate that includes all significant
decisions and events relating to the inmate, including: (1) a signed
orientation checklist, (2) the initial intake information form, (3) a signed
acknowledgment of receipt of RRC rules, (4) a signed acknowledgment of
receipt of disciplinary policy, and (5) an individualized reentry plan.

     During our review of 177 inmate files, we identified documentation that
was missing from the inmates’ case files, including:

      20 terminal reports (11 percent);

      11 inmate subsistence payment agreement forms (6 percent); and

      5 orientation checklists signed by the inmate (3 percent).

Other SOW Compliance Matters

      In addition to the matters noted above, we found that the RRCs
generally complied with requirements related to programming, home
confinement, and searches.

Programming

      RRCs are required to implement a multi-disciplinary Program Review
Team to determine inmate program needs for reentry. Such reentry issues
include focusing on family, employment, housing, and drug and alcohol
treatment issues. Pursuant to the SOW, during the inmate’s first 2 weeks at
the RRC, staff will complete an individualized reentry plan for each inmate.23
During an inmate’s first 6 weeks at an RRC, program planning meetings are
conducted weekly, and bi-weekly after the first 6 weeks.

      During our review of 177 inmate files, we found that most inmate files
170 of 177 (96 percent) contained the necessary initial individualized reentry
plans. However, we identified 7 inmates (4 percent) for whom the inmate file
did not contain an initial individualized reentry plan. We also identified

       23
          The auditors did not evaluate the quality of reentry programming. However, we
did assess whether individualized reentry plans were developed for each inmate, and
whether the plans contained the necessary elements. In addition, the auditors assessed
whether the RRCs regularly met with inmates to discuss reentry planning, monitored the
inmate’s progress towards achieving the reentry plan, and implemented corrective actions
when necessary.



                                          - 26 ­
6 inmates (3 percent) whose individualized reentry plans were not updated
weekly during the first 6 weeks, and 38 inmates (21 percent) whose
individualized reentry plans were not updated bi-weekly after the first
6 weeks. Additionally, we also identified 11 inmates (6 percent) who were
not making necessary progress towards their individualized reentry plans for
which it does not appear that corrective action was taken by the RRC.24
Overall, with the exception of the few instances noted above, the RRCs were
adequately planning and monitoring reentry programming.

Home Confinement

       Home confinement provides an opportunity for inmates to assume
increasing levels of responsibility, while at the same time providing sufficient
restrictions to promote community safety and convey the sanctioning value of
the sentence. Inmates placed on home confinement are required to remain
in their home when not involved in approved activities including employment
or programming activities, such as drug abuse counseling. Compliance with
home confinement may be monitored by the RRC through telephone,
in-person contacts, or electronic monitoring equipment. During our review of
177 inmate files, we found no indication that the RRCs failed to conduct the
required home confinement checks.

Searches for Contraband

      The SOW requires RRCs to have written policy and procedures for
searches to control contraband and its disposition. RRC staff conduct
searches of the facility and personal belongings of inmates, including any
motor vehicles operated by an inmate, as needed, but at least once per
month.25 RRCs must maintain the documentation of these searches in a log.
During our review of the six RRCs included in our audit, we identified no
indication that contraband searches were not being conducted as required.

Conclusion

       The SOW sets out several requirements the RRCs are required to
follow, with the purpose of helping inmates acquire the skills necessary for
their reintroduction into society and decreasing recidivism. While the six
RRCs we reviewed adequately met the SOW requirements related to

      24
          One example of an inmate not being on track with their program would be the
inmate failing to obtain employment.
      25
          RRC staff may also conduct random searches of inmates as necessary, which do
not need to be documented.



                                         - 27 ­
programming, home confinement, and searches for contraband, we found
that all six RRCs did not fully comply with the SOW or the purpose of the RRC
program. We identified deficiencies related to substance abuse testing,
inmate subsistence payments, escapes, and authorized inmate absences.
These conditions increase the probability that inmates will not benefit from
the RRC program, as they will not learn the necessary skills required for a
smooth transition into society prior to their eventual release into their
communities.

       We also identified issues related to incomplete or missing
documentation at all 6 RRCs we visited. Together, these issues raise the
concern that the RRCs cannot ensure compliance with SOW requirements
related to: (1) inmate passes, (2) approval and documentation of authorized
inmate absences, (3) inmate and official visitors, (4) inmate employment,
and (5) maintaining inmate files. In addition, we identified areas that were
not sufficiently addressed in the SOW related to collecting, documenting, and
reporting inmate subsistence payments; procedures for technical escapes;
disciplinary requirements for escapes; timeframes for implementing escapes
procedures; and timeframes for reporting unaccounted for inmates as
escapes.

       It should be noted that the findings related to the collection,
documentation, and reporting of subsistence payments were limited to the
Denver, Boston, and Kansas City RRCs because of poor internal controls. In
addition, it should be noted that we did not identify any deficiencies related
to substance abuse testing at the El Paso RRC, and we did not identify any
deficiencies related to escapes at the Washington RRC. Finally, and as
previously stated, the current Boston and Kansas City RRC facility directors
explained that the majority of findings attributed to their facilities were a
result of the previous RRC staff, who were not performing as BOP required
and were replaced in February 2011 and November 2009, respectively.




                                    - 28 ­
Recommendations

      We recommend that the BOP:

1.	   Enhance its monitoring procedures to ensure that RRCs: (1) perform
      all required drug and breathalyzer tests, (2) hold required disciplinary
      hearings for escapes, and (3) maintain complete and accurate
      documentation related to the performance of SOW requirements.

2.	   Remedy the $87,309 in questioned costs related to subsistence
      payments.

3.	   Modify the SOW to provide detailed procedures for collecting, reporting,
      and documenting subsistence payments. These procedures should
      include guidance about the circumstances under which overpayments
      may be accepted and requirements that RRCs: (1) collect full
      subsistence payments immediately after the inmate is paid; (2) not
      refuse money from inmates for subsistence payments when it is owed,
      even when the amount proffered is less than the total owed;
      (3) establish a process for accurately tracking subsistence payments
      owed and timeframes for obtaining full subsistence payments if a
      partial payment is provided; and (4) report inmates to the BOP who
      have not made subsistence payments or the full subsistence payment
      within the established timeframes.

4.	   Ensure that required escape reports are filed by BOP CCM offices for all
      escapees, including technical escapes, so that it has an accurate record
      of the types of escapes that are occurring.

5.	   Ensure that its procedures for immediately reporting escapes to the
      USMS are followed.

6.	   Create uniform formal disciplinary procedure for inmates who return
      significantly late to the RRC on multiple occasions without an excuse,
      such as a late bus, including definitions of what is considered
      significantly late.

7.	   Create specific guidelines for determining when to report an inmate as
      having escaped, including how long RRCs should wait for an inmate to
      return before implementing escape procedures, and requiring that
      RRCs should document the reasons for an inmate’s delay if the inmate
      subsequently returns to the facility.




                                     - 29 ­
II.   BOP RRC MONITORING

      We found that the BOP’s procedures for administering and
      monitoring the RRC contracts were generally adequate.
      However, we found that the BOP staff responsible for approving
      monthly RRC billings could not determine from the invoices
      whether the correct amount of subsistence payments were
      collected and reported. We also found that the RRCs are not
      required to provide supporting documentation related to
      subsistence payments along with the monthly invoices. In
      addition, we found that the BOP’s RRC monitoring efforts failed to
      detect the deficiencies we found related to inmate subsistence
      payments and that the subsistence payment monitoring
      procedures were inconsistent. Finally, we found that deficiencies
      identified during the BOP’s monitoring process were reported
      differently in the BOP’s full monitoring reports among RRCs.

       The use of contractor-operated RRCs assists the BOP in its mission of
transitioning inmates back into society by allowing the inmates to be placed
closer to the communities into which the inmates will eventually be released.
The contractors who operate RRCs are subject to the BOP requirements set
forth in the standard SOW.26 The BOP is responsible for administering the
RRC contracts and ensuring that monthly billings are accurate. The BOP is
also required to conduct regular monitoring of all RRCs to ensure compliance
with applicable laws, regulations, policies, contract requirements, and to
ensure that fraud, waste, abuse, mismanagement, and illegal acts are
prevented, detected, and reported.

      Based on our audit work, we found that the BOP’s monitoring
procedures were sufficient to identify most RRC deficiencies related to
compliance with the SOW and that corrective actions were implemented.
However, as discussed in the following sections, we found that the BOP needs
to improve its procedures for monitoring subsistence payments, which
includes ensuring that subsistence payments reported on the RRCs’ monthly
invoices are accurate. In addition, the BOP needs to ensure that its
monitoring and reporting processes are consistent.


      26
          During the period included in our audit, the BOP utilized 13 performance-based
contracts awarded to 8 contractors. The performance-based contracts are not governed by
the SOW; however, many of the SOW requirements are included in the performance-based
contracts. Five of the six RRCs included in our audit were governed by the SOW, while the
remaining RRC included in our audit was governed by two performance-based contracts.
Throughout this report, requirements described as contained in the SOW are also contained
in the 13 performance-based contracts.


                                          - 30 ­
Inadequate Subsistence Payment Monitoring and Reporting
Requirements

       As previously mentioned, to promote financial responsibility the BOP
requires inmates to make subsistence payments to RRCs to help defray the
cost of their confinement. The BOP considers an RRC deficient if it does not
collect full subsistence payments from inmates. RRCs are also required to
reduce monthly billings by the amount of subsistence payments collected and
indicate this on its monthly bill to the BOP. However, as stated in Finding I
we noted significant deficiencies related to the collection, documentation, and
reporting of subsistence payments at three of the six RRCs included in our
audit.

       We found that the BOP’s controls over the collection, documentation,
and reporting of subsistence payments were inadequate. The BOP officials
responsible for approving the monthly RRC invoices could not determine from
the invoices whether the correct amount of subsistence payments were
collected and reported. In addition, the BOP does not require RRCs to report
gross wages on the monthly billings or submit copies of the inmates’ earnings
statements and the subsistence payment receipts provided to the inmates by
the RRCs.27 As a result, the BOP officials responsible for reviewing and
approving RRC invoices do not have sufficient information or documentation
to determine if all required subsistence payments were collected, or if all
subsistence payments collected were reported to the BOP and deducted from
the BOP billings. The lack of oversight and controls related to subsistence
payments puts the BOP at risk for overpaying the RRCs with funds that could
have been used for other purposes.

       We also found that the BOP’s monitoring process failed to identify
significant deficiencies related to the collection, documentation, and reporting
of subsistence payments at three of the six RRCs included in our audit, as
discussed in Finding I. We discussed this issue with BOP officials who stated
that the Contract Oversight Specialists (COS) are responsible for monitoring
subsistence payments. However, we found that there were no standardized
procedures for monitoring subsistence payment collection, documentation,
and reporting. For example, a COS in Kansas City stated that the RRCs are
required to provide copies of all subsistence payment documentation on a
monthly basis, including inmate pay statements, money orders, and
subsistence payment receipts, to determine if the full subsistence payments
were collected and deducted from the monthly invoice. However, the


       27
         Subsistence receipts are receipts given by the RRC to the inmate as verification for
the amount of subsistence paid by the inmate.



                                           - 31 ­
Kansas City CCM office did not maintain the monthly subsistence payment
records provided by the RRCs. In comparison, the COS in Denver stated that
subsistence payments are reviewed by selecting a sample of inmate files at
the RRC during the full monitoring process, but that no documentation of this
review was maintained.

      The BOP’s lack of consistency for monitoring subsistence payments
may have contributed to the fact that the significant deficiencies we identified
related to the RRCs collection, documentation, and reporting of subsistence
payments were not identified during the BOP’s monitoring process. As a
result, we recommend that the BOP require RRCs to submit copies of
inmates’ paystubs, waivers, and subsistence payment collection receipts
along with the monthly billings, which should be maintained by the BOP along
with the approved invoices. In addition, we recommend that the BOP
implement procedures for reviewing subsistence payments along with the
monthly invoices, and for ensuring that RRCs remedy inaccurate or
uncollected subsistence payments.

BOP Monitoring and Inspections

      The BOP generally conducts a full monitoring inspection of every RRC
annually to ensure compliance with applicable laws, regulations, policies, and
contract requirements, and to ensure that fraud, waste, abuse,
mismanagement, and illegal acts are prevented, detected, and reported.28
Each RRC receives feedback from the BOP in the form of monitoring reports
or direct correspondence, which may include deficiencies that the RRC must
remedy. The BOP determines a deficiency is present when evidence indicates
that the RRC did not meet the performance requirements of the contract.
Pursuant to the SOW, the evidence that supports a deficiency must be
factually sufficient to lead a knowledgeable, reasonable person who is not an
expert in the program area to come to the same conclusion as the reviewer.

       Specifically, the BOP conducts the following types of monitoring.

   	 Pre-Occupancy Visits - After the contract is awarded, but before the
      Contracting Officer issues the “notice to proceed,” the BOP may
      conduct a pre-occupancy visit at the RRC facility to assess whether the
      RRC is ready to begin performance.


       28
         The BOP conducts a full monitoring inspection and review of every major use
(RRCs with an average daily population of 31 or more) and moderate use (RRCs with an
average daily population of 16 to 30) RRC annually. For minor use contracts (RRCs with an
average daily population of 15 or less), full monitoring inspections are only required every
18 months.


                                           - 32 ­
   	 Full Monitoring Inspections - A full monitoring is a comprehensive
      review of all aspects of the RRC’s operation and facility. This full
      monitoring inspection includes examining: (1) inmate accountability,
      (2) inmate programming, (3) relationships with the community,
      (4) compliance with laws and regulations, (5) staffing levels and
      qualifications of staff, and (6) communication with the BOP.

   	 Interim Monitoring Inspection - An interim monitoring inspection is
      an unannounced on-site examination by BOP officials. Ordinarily BOP
      officials inspect previously identified deficiencies during an interim
      monitoring inspection, but they are not limited to inspecting such
      deficiencies.

   	 Contractor Evaluation Forms - The Contractor Evaluation Form is an
      annual assessment conducted by the Contracting Officer’s Technical
      Representative (COTR). The evaluation assesses the RRC’s:
      (1) accountability, (2) programs, (3) community relations, (4) site
      validity and suitability, (5) personnel, and (6) communication and
      responsiveness. The rating period represents 12 months of contract
      performance and ordinarily is conducted at the end of each
      performance period as identified on the Contract Award document.

Inconsistent Monitoring

       We obtained the annual FY 2010 full monitoring reports for all 177 RRC
contracts. For the full monitoring reports we reviewed for the 177 RRC
contracts, the full monitoring reports for 100 contracts identified “significant
deficiencies” for which the RRC was required to implement a formal corrective
action plan, the full monitoring reports for 37 contracts only indentified
“areas of concern” for which the RRC is not required to implement a formal
corrective action plan, and the full monitoring reports for 40 contracts did not
identify any issues. The monitoring reports did not contain sufficient detailed
information to support the classification of the issues reported as a
“significant deficiency” as compared to the similar issues that were reported
as an “area of concern.” As a result, we were unable to determine if the
similar issues were reported differently because of the severity of the issue or
because of inconsistencies in full monitoring reporting process. For example,
18 RRCs (10 percent) received a deficiency related to accountability
procedures, including incomplete inmate sign-out and sign-in logs, home
confinement checks that were not conducted, and accountability checks that
were not conducted for inmates away on social passes. However, for eight
additional RRCs (5 percent), we found that the same issues were only
reported as a comment or area of concern. However, none of the 26 reports
with deficiencies related to accountability procedures provided sufficient


                                     - 33 ­
detail to determine the extent of the deficiency, such as the number of files
reviewed or the number of incomplete inmate sign-out and sign-in logs,
home confinement checks that were not conducted, and accountability checks
that were not conducted for inmates away on social passes.

       In our judgment, the BOP should develop guidelines for determining
the materiality of issues identified during its monitoring in order to ensure
that deficiencies are reported consistently. In addition, the BOP should
modify its monitoring reports to describe incidents in enough detail that
“significant deficiencies” are clearly distinguished from “areas of concern.”
As a result, we make recommendations to that effect to the BOP.

Conclusion

       We found the BOP needs to improve its procedures for monitoring
inmate subsistence payments and that the monitoring reports did not contain
sufficient detailed information to support the classification of the issues
reported. The BOP staff responsible for approving monthly RRC invoices
could not determine from the invoices whether the RRCs had collected and
reported the correct amount of subsistence payments, and the RRCs were not
required to provide supporting documentation related to subsistence
payments along with the monthly invoices. We also found that the BOP’s
RRC monitoring efforts failed to detect the significant deficiencies related to
inmate subsistence payments, and that subsistence payment monitoring
procedures were inconsistent.

       We also noted several inconsistencies related to the way issues are
reported among CCM offices. In some reports we found issues reported as a
“significant deficiency” for which the RRC was required to implement a formal
corrective action plan, while in other reports similar issues were reported as
an “area of concern” for which the RRC is not required to implement a formal
corrective action plan.

Recommendations

     To strengthen the BOP’s administration and monitoring of the RRC
program, we recommend that the BOP:

8.	   Require RRCs to submit copies of inmates’ paystubs, waivers, and
      subsistence payment collection receipts along with the monthly billings,
      which should be maintained by the BOP along with the approved
      invoices.




                                     - 34 ­
9.	    Implement procedures for reviewing subsistence payments along with
       the monthly invoices and following up on inaccurate or uncollected
       subsistence payments.

10.	   Develop guidelines for determining the materiality of issues identified
       during its monitoring in order to ensure that deficiencies are reported
       consistently. In addition, the BOP should modify its monitoring reports
       to describe incidents in enough detail that “significant deficiencies” are
       clearly distinguished from “areas of concern.”




                                      - 35 ­
            STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations of
laws and regulations. Our evaluation of the BOP’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. The BOP management is responsible for the establishment and
maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report,
we identified deficiencies in the BOP’s internal controls that are significant
within the context of the audit objectives and based upon the audit work
performed that we believe adversely affect the BOP’s ability to operate the
RRC program. Specifically, its monitoring of RRC contractor performance is
insufficient to prevent significant deficiencies.

      Because we are not expressing an opinion on the BOP’s internal control
structure as a whole, this statement is intended solely for the information and
use of the BOP. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                     - 36 ­
                                                                           APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

     The objectives of the audit were to determine whether: (1) RRC
operations are conducted in compliance with BOP requirements and (2) the
BOP effectively administers and monitors its RRC contracts.

Scope and Methodology Section

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      To determine whether the BOP effectively monitors RRC performance
and ensures the RRCs are operating in compliance with BOP requirements,
we reviewed the BOP’s RRC program to determine whether operations were
in accordance with BOP’s SOW for RRC contracts.29 There were no laws or
regulations that were significant within the context of the audit objectives.
As a result, our audit report does not contain a Statement on Compliance
with Laws and Regulations.

       We conducted audit work at six RRCs in Denver, Colorado (Denver
RRC); Leavenworth, Kansas (Leavenworth RRC); El Paso, Texas (El Paso
RRC); Boston, Massachusetts (Boston RRC); Kansas City, Missouri
(Kansas City RRC); and Washington, D.C. (Washington RRC).
We also interviewed officials at BOP Headquarters responsible for the contract
solicitation and award, and the operation of the RRC program. For
comparison purposes, throughout this audit, it should be noted that the six
RRCs reviewed varied in size. The bed capacities for each of the six RRCs are
shown in Exhibit 8.

      29
          During the period included in our audit, the BOP utilized 13 performance-based
contracts awarded to 8 contractors. The performance-based contracts are not governed by
the SOW; however, many of the SOW requirements are included in the performance-based
contracts. Five of the six RRCs included in our audit were governed by the SOW, while the
remaining RRC included in our audit was governed by a performance-based contract.
Throughout this report, requirements described as contained in the SOW are also contained
in the 13 performance-based contracts.


                                          - 37 ­
                               EXHIBIT 8 

               BED CAPACITIES FOR THE SIX RRCS AUDITED30


                             FACILITY                  BED CAPACITY
                   Denver RRC                                 85
                   Leavenworth RRC                            55
                   El Paso RRC                               132
                   Boston RRC                                 88
                   Washington RRC                            140
                   Kansas City RRC                            90
                              Total                          590
               Source: BOP

     In addition, we interviewed officials at the BOP Regional Office in
Kansas City, Kansas; and BOP Contract Oversight Specialists (COS)
responsible for monitoring RRCs and RRC billings in Denver, Colorado;
Kansas City, Kansas; and El Paso, Texas.

      To determine whether RRCs are operating in compliance with BOP
requirements, we selected a total sample of 177 inmates out of the
8,736 inmates who were transferred to the 6 RRCs visited from
FYs 2008 through 2010, and reviewed all related documentation.31

      We reviewed each sample inmate file to determine whether:

   	 inmates signed and dated an orientation checklist upon arriving at an
      RRC;
      30
           The audited Washington RRC operated under two contracts. The BOP needed to
expand the bed capacity in Washington D.C. and chose to award a second contract rather
than amending the original contract. The audited Washington RRC corresponds to the two
Washington RRCs listed in Appendix III with bed capacities of 75 and 65. Although the
audited Washington RRC operated under two contracts, it was managed as one facility with
one facility director.
      31
          Generally, 50 percent of our sample included escaped inmates and the remaining
50 percent was selected randomly from the remaining inmates included in the scope of our
audit. However, in some instances there were not enough escaped inmates during the
period to make up 50 percent of the sample, in which case we randomly selected additional
inmates from the remaining non-escapees. As a result, our sample intentionally included a
disproportionally higher number of escaped inmates than the 3 percent average number of
escapes from all RRCs during the period reviewed.


                                          - 38 ­
     inmates were interviewed upon their arrival at an RRC; 


     passes issued to inmates were in compliance with the requirements set 

      forth in the SOW;

  	 employment checks of inmates were completed;

  	 the inmate sign-out and sign-in procedures were followed;

  	 visitor sign-in and sign-out procedures were followed;

  	 vehicle searches were performed on inmates’ vehicles;

  	 inmate files contained all required documentation, including an initial
     intake form, signed acknowledgment of receipt of facility rules, signed
     acknowledgment of receipt of disciplinary policy, individualized reentry
     plan, signed release of information forms (including medical), terminal
     report, and subsistence payment agreement form;

  	 RRCs randomly drug tested at least 5 percent of inmates monthly;

  	 RRCs tested for alcohol every time an inmate returned from an
     unsupervised activity;

  	 RRCs tested inmates with a substance abuse history at least four times
     a month;

  	 RRCs conducted a weekly program planning meeting during an inmate’s
     first 6 weeks at the RRC;

  	 RRCs conducted a bi-weekly program planning meeting subsequent to
     an inmate’s first 6 weeks at the RRC;

  	 RRCs forwarded incident reports to the BOP for all escapees;

  	 RRCs conducted disciplinary hearings for all escapees; and

  	 RRCs documented an explanation when inmates had more than
     12 months remaining on their sentences when transferred to an RRC.

     We also reviewed 3 sample months of RRC billings to the BOP for each
RRC visited to determine whether RRCs:



                                   - 39 ­
   	 billed for any unallowable items, such as days of an escape;

   	 collected full subsistence payments from inmates;

   	 reduced their monthly billings by the amount of subsistence payments
      to be collected from inmates; and

   	 sought pre-approval for non-emergency medical treatment for inmates.

      Finally, to determine whether the BOP ensures the RRCs are operating
in compliance with BOP requirements, we reviewed the BOP’s FY 2010 full
monitoring reports for all 177 RRC contracts and all BOP monitoring reports
from FYs 2008 through 2010 for the 6 RRCs reviewed.32




       32
           A full monitoring report is a comprehensive review by the BOP of all aspects of an
RRC’s operation and facility. The BOP conducts a full monitoring inspection and review of
major use (RRCs with an average daily population of 31 or more) and moderate use (RRCs
with an average daily population of 16 to 30) RRCs annually. Full monitoring inspections and
reviews of minor use contracts (RRCs with an average daily population of 15 or less) are
conducted every 18 months. The full monitoring report is broken up into the following six
areas: (1) inmate accountability, (2) inmate programming, (3) community relations,
(4) RRC compliance with laws and regulations, (5) RRC staff, and (6) communications with
the BOP. In addition to full monitoring inspections, the BOP also conducts pre-occupancy
visits to assess whether the RRC is ready to begin performance, interim monitoring
inspections – an unannounced on-site examination – to follow up on, but not limited to,
previously identified deficiencies; and contractor evaluations rating the RRCs performance at
the end of each 12-month performance period.


                                           - 40 ­
                                                                         APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

  QUESTIONED COSTS:33                                    AMOUNT           PAGES

  Subsistence Payments Not Collected                         $82,553        9-10

  Subsistence Payments Not Reported                            $4,756        11

  TOTAL QUESTIONED COSTS:                                   $87,309




      33
           Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.


                                         - 41 ­
                                                   APPENDIX III

LIST OF RRC CONTRACTS, PER DIEM RATES, AND CAPACITY

                                     PER DIEM     BED
                LOCATION     STATE   RATE ($)   CAPACITY
      Birmingham               AL       56          62
      Montgomery               AL       67          30
      Ester                    AK       88           4
      Florence                 AZ       77          40
      Phoenix                  AZ       74         100
      Tucson                   AZ       81          25
      Tucson                   AZ       83          50
      Tucson                   AZ       93          25
      Tucson                   AZ      225           5
      Little Rock              AR       78          70
      Bakersfield              CA       78          21
      El Monte                 CA       74          70
      Fresno                   CA       83          43
      Garden Grove             CA       92          69
      Los Angeles              CA       64          60
      Los Angeles              CA       88          70
      Los Angeles              CA       91          70
      Oakland                  CA       82          81
      Riverside                CA       92          31
      Salinas                  CA       87          10
      San Diego                CA       84         170
      San Francisco            CA       82          76
      Colorado Springs         CO       76          32
      Denver                   CO       58          85
      Durango                  CO       83           4
      Fort Collins             CO       57          10


                           - 42 ­
                               PER DIEM     BED
          LOCATION     STATE   RATE ($)   CAPACITY
Hartford                 CT       89          50
Washington               DC       94          25
Washington               DC       97          75
Washington               DC      100          65
Broward County           FL       73          88
Fort Myers               FL       82          38
Jacksonville             FL       54          50
Miami                    FL       70          80
Miami                    FL       80          72
Ocala                    FL       72          26
Orlando                  FL       58          70
Pensacola                FL       65          25
Tampa                    FL       70          77
West Palm Beach          FL       74          60
Atlanta                  GA       58         154
Macon                    GA       75          50
Savannah                 GA       40          43
Honolulu                 HI       90          82
Cour d’alene             ID      100          12
Nampa                    ID      100          15
Champaign                IL       87          10
Chicago                  IL       57          55
Chicago                  IL       99         175
Marion                   IL       97          42
Peoria                   IL       84          16
Springfield              IL       92          20
Evansville               IN       89          28
Indianapolis             IN       63          40
Michigan City            IN       61          52


                     - 43 ­
                               PER DIEM     BED
          LOCATION     STATE   RATE ($)   CAPACITY
Leavenworth              KS       87          55
Wichita                  KS       83          35
Ashland                  KY       72           8
Lexington                KY       86          32
Louisville               KY       83          33
Baton Rouge              LA       82          22
Lake Charles             LA       90          14
New Orleans              LA       87          60
Portland                 ME       98          20
Baltimore               MD        67          60
Boston                   MA       88          88
Benton Harbor            MI       70          24
Detroit                  MI       95         107
Detroit                  MI      105          20
Grand Rapids             MI       98          45
Grand Rapids             MI      101          41
Kalamazoo                MI       70           9
Marquette                MI       86          24
Saginaw                  MI       70          31
Duluth                  MN        86          10
Elmore                  MN       220           8
Roseville               MN        91          60
Hattiesburg              MS       84          30
Jackson                  MS       64          25
Tupelo                   MS       63          30
Columbia                MO        48          15
Farmington              MO        78          24
Kansas City             MO        71          90
Popular Bluff           MO        78          17


                     - 44 ­
                                PER DIEM     BED
           LOCATION     STATE   RATE ($)   CAPACITY
Springfield              MO        83          50
St. Louis                MO        58           4
St. Louis                MO        73          17
Billings                  MT       64          15
Butte                     MT       66          15
Galen                     MT      256          20
Great Falls               MT       63          26
Hastings                  NE       79          20
Las Vegas                 NV       67          90
Manchester                NH      124          20
Newark                    NJ       70          99
Albuquerque              NM        59         120
Las Cruces               NM        75          44
Binghamton                NY       99          10
Bronx                     NY      109         106
Buffalo                   NY       69          48
Rochester                 NY       68          30
Syracuse                  NY      100          34
Asheville                 NC       91          15
Charlotte                 NC       72          65
Durham                    NC       91          16
Fayetteville              NC       69          30
Greensboro                NC       80          40
Raleigh                   NC       68          51
Wilmington                NC       82          20
Winston Salem             NC       80          36
Bismarck                  ND       75          20
Fargo                     ND       91          26
Akron                     OH       77          29


                      - 45 ­
                                PER DIEM     BED
           LOCATION     STATE   RATE ($)   CAPACITY
Cincinnati                OH       76          35
Cleveland                 OH       70          65
Columbus                  OH       76          40
Dayton                    OH       79          16
Toledo                    OH       87          16
Youngstown                OH       64          23
Oklahoma City             OK       38          50
Portland                  OR      110          15
Portland                  OR      112          75
Harrisburg                PA       94          30
Philadelphia              PA       63          75
Philadelphia              PA       72          30
Pittsburgh                PA       76          70
Scranton                  PA       83          20
Santurce                  PR       63          30
Columbia                  SC       73          37
Florence                  SC       75          22
Greenville                SC       83          38
North Charleston          SC       75          34
Chamberlain               SD      206          10
Huron                     SD      276          12
Mitchell                  SD       74          17
Rapid City                SD       71          45
Sioux Falls               SD       97          42
Sioux Falls               SD      169           5
Chattanooga               TN       85          67
Knoxville                 TN       85          48
Memphis                   TN       58          92
Nashville                 TN       67          58


                      - 46 ­
                               PER DIEM     BED
          LOCATION     STATE   RATE ($)   CAPACITY
Austin                   TX       66          57
Beaumont                 TX       84          34
Brownsville              TX       70          70
Corpus Christi           TX       62          35
Del Rio                  TX      133          12
Edinburg                 TX       67          82
El Paso                  TX       66         132
Fort Worth               TX       65          78
Houston                  TX       51         190
Hutchins                 TX       59         110
Laredo                   TX       70          73
Lubbock                  TX       74          33
Midland                  TX       63          70
San Antonio              TX       76         127
Tyler                    TX       79          52
Waco                     TX       86          34
Salt Lake City           UT       73          60
Lebanon                  VA       74          25
Newport News             VA       84         100
Bellingham              WA       133          16
Seattle                 WA        99          60
Spokane                 WA        98          40
Tacoma                  WA       104          23
Tacoma                  WA       107          24
Clarksburg              WV        69          30
Hillsboro               WV       128          15
Saint Albans            WV        54          48
Wheeling                WV        84           8
Green Bay                WI       82          10


                     - 47 ­
                                PER DIEM     BED
           LOCATION     STATE   RATE ($)   CAPACITY
Jonesville                WI      101          25
Madison                   WI       97           4
Madison                   WI      100           4
Milwaukee                 WI       93          40
Casper                   WY        73          20
Gillette                 WY        81          12




                      - 48 ­
                                                                                 APPENDIX IV 


  ."'" .... \
 i~'
  ,                .
 : ~          ,'f                              Feder:.1 Burl!::lU ill Prihl)ns
   ' ...........
 \-".,;        C




                                               February 24 , 2012




MEMORANDUM FOR RAYMOND J. BEAUDET
               ASSISTANT INSPECTOR GENERAL
                 FOR AUDIT




FROM;

SUBJECT:               Response to the Office of Inspector General's (OIG)
                       DRAFT Report: Audit of the Federal Bure~u of
                       Prisons ' Contrac~in9 For and Management of
                       Residential ReeDtr Centers

The Bureau of Prisons (BOP) appreciates the opportunity to respond
to the open recommendations from the draft report entitled Audit of
the Federal Bureau of Prisons' Contracting For and Management of
Residential Reentry Centers.

Please find the Bureau's response to the recommendations below:

Recommendation 1: ~Enhance its monitori ng procedures to ensure t ha t
RRCs:   (l) perform all required drug and breathalyzer tests, (2) hold
required disciplinary hearings for escapes, and (3) maintain
comp lete and a ccurate documentation related to t he performance of
SOW require~ents.p

Response : The BOP concurs with the recommendat i on . The "Full
Monitoring I ns trument " in Program Statement (PS) 7300 . 09, Community
Cor rections Man ual , will be revised to add enhanced monitoring
procedures not already inc luded in the instrument, which will require




                                      - 49 ­
negotiation with the union. In the meantime, a guidance memorandum,
currently in the review process, will be issued to Residential
Reentry Management staff prior to March 30, 2012. The guidance
memorandum will provide direction to improve our current mon i toring
procedures to ensure Residential Reentry Centers:    (1) perform all
required drug and breathalyzer tests; (2) hold required disciplinary
hearings for escapes; and (3) maintain complete and accurate
documentation related to the performance of SOW requirements.

Recommendation 2: " Remedy the $87,309 in questioned costs related
to subsistence payments."

Response: The BOP concurs with the recommendation . The
contracting Office is in the process of verifying the amounts with
the contractors and plans to pursue reimbursement of the verified
amounts to the Government through the processes identified in Federal
Acquisition Regulation (FAR) 32.6, Contract Debts . The Contracting
Officer will be issuing a demand for payment letter to each of the
three identified contractors in March 2012. In accordance with FAR
32.606 (a) the contractor has 30 days to liquidate the debt or request
installment payments or deferment of collection .

Recommendation 3: "Modify the SOW to provide detailed procedures
for collecting, reporting, and documenting subsistence payments .
These procedures should include guidance about the circumstances
under which overpayments may be accepted and requirements that RRCs :
(1) collect full subsistence payments immediately after the inmate
is paid; (2) not refuse money from inmates for subsistence payments
when it is owed, even when the amount proffered is less than the tota l
owed; (3) establish a process for accurately tracking subsistence
payments owed and time frames for obtaining full subsistence payments
if a partial payment is provided; and (4 ) report inmates to the BOP
who have not made subsistence payments or the full subsistence
payment within the established time frames."

Response: The BOP concurs with the recommendation . The RRC SOW,
used for all new solicitations was revised on February 13, 2012, and
provides detailed procedures for collecting, reporting, a nd
documenting subsistence payments. See attached modification.
These procedures include guidance regarding the circumstances under
which overpayments may be accepted and requirements that RRCs :
(1) collect full subsistence payments within 48 hours after the
inmate i s pa i d; (2) not refuse money from inmates for subsistence
payments when i t is owed, even when the amount proffered is less than
the total owed; (3) establish a process for accurately tracking
                                   2




                                - 50 ­
subsistence payments owed and time frames for obtaining full
subsistence payments i f a partial payment is provided; and (4 ) report
inmates to the BOP who have not made subsistence payme nts or the full
subsistence payment within the established time frames by
immediately issuing a disciplinary report. The revised SOW has been
incorporated into the newly issued solicitation for RRC services in
El Paso, Texas, and will be utilized for all future RRC solicitations .

Recommendation 4:  "Ensure that required escape reports are filed
by BOP CCM offices for all escapees, including technical escapes,
so that it has an accurate record of the types of escapes that are
occurring .

Response: The BOP concurs with the recomme ndation. A guidance
memorandum, currently in the review process, will be issued to
Residential Reen try Management staff prior to March 30, 2012. The
guidance memorandum will provide direction to ensure required escape
reports are filed for all escapees, including those involved in
technical escapes.

Recommendation 5 : "Ensure that its procedures for immediately
reporti ng escapes to the USMS are followed . "

Response: The BOP concurs with the recommendation. A guidance
memorandum, currently in the review process, will be issued to
Residential Reentry Management staff prior to March 30, 2012. The
guidance memorandum will provide direction to ensure policy is
followed as it relates to reporting escapes to the USMS.

Recommendation 6 : "Create uniform formal disciplinary procedure
for inmates who return significantly late to the RRC on multiple
occasions without an excuse, such as a late bus, including
definitions of what is considered significantly late . "

Response: The BOP concurs with the recommendation. A SOW work
group has been established to evaluate revisions to the SOW. This
recommendation will be included in the SOW work group discussions
and a procedure will be developed to create a uniform disciplinary
procedure . The initial meeting of the work group is scheduled for
the week of March 19, 2012.

Recommendation 7: "Create specific guidelines for determining when
to report an inmate as having escaped, including how long RRCs should
wait for an inmate to return before implementing escape procedures,

                                  3




                                - 51 ­
and requiring that RRCs should document the reasons for an inmate's
delay if the inmate subsequently returns to the facility."

Re sponse : The BOP concurs with the recommendation.  A guidance
memorandum, currently in the review process, will be issued to
Residential Reentry Management staff prior to March 30, 2012. The
guidance memorandum will provide direction to ensure pOlicy is
followed as it relates to escape reporting requirements.
Additionally, a SOW work group has been established to evaluate
revisions to the SOW.  The SOW work group discussions will include
specific guidelines for escape reporting.   The initial meeting of
the work group LS scheduled for the week of March 19, 2012.

Recorrunendation 8 : "Require RRCs to submit copies of inmates'
paystuhs, waivers, and subsistence payment collection receipts along
with the monthly billings, which should be maintained by the BOP along
with the approved invoices."

Respon s e : The BOP concurs with the recommendation.  A guidance
memorandum, currently in the review process, will be issued to
Residential Reentry Management (RRM) staff prior to March 30, 2012.
The guidance memorandum directs the RRM staff to ensure RRCs submit
copies of inmates' paystubs, waivers , and subsistence payment
collection receipts along with the monthly billings. This
documentation will be maintained with the approved invoices.

Recorrunendation 9 : "Implement procedures for reviewing subsistence
payments along with the monthly invoices and following up on
inaccurate or uncollected subsistence payments."

Response : The BOP concurs with the recommendation.    A guidance
memorandum, currently in the review process, will be issued to
Residential Reentry Management (RRM) staff prior to March 30, 2012.
The guidance memorandum will remind RRM staff to follow established
procedures in PS 7300.09, Community Corrections Manual, and
T7300.01, Community Corrections Technical Reference Manual, for
reviewing subsistence payments along with the monthly invoices and
following up on inaccurate or uncollected subsistence payments.

Recorrunendation 10 : "Develop guidelines for determining the
materiality of issues identified during its monitoring in order to
ensure that deficiencies are reported consistently . In addition,
the BOP should modify its monitoring reports to describe incidents
in enough detail that "significant deficiencies" are clearly
distinguished from "areas of concern."
                                  4




                                - 52 ­
Response : The BOP concurs with the recommendation. The "Full
Monitoring Instrument" in PS 7300.09, Community Corrections Manual,
will be revised to include a detai~ed description of deficiencies
so significant incidents are clearly distinguished . Revisions to
the monitoring instrument will require negotiation with the union.
In the meantime, the guidance memorandum, currently in the review
process, will be issued to Residential Reentry Management staff prior
to March 20, 2012. The guidance memorandum will emphasize the
importance of accurately documenting deficiencies and maintaining
complete and accurate documentation. Additionally, it will remind
staff to seek technical guidance from the Regional Management Team
and review the program review guidelines.

If you have any questions regarding this response, please contact
H. J . Marberry, Assistant Director, Program Review Division, at
(202) 353-2302.

Attachment




                                  5




                               - 53 ­
                                                                 APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the BOP. The BOP’s
response is incorporated in Appendix IV of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

  1.	 Resolved. The BOP concurred with our recommendation to enhance
      its monitoring procedures to ensure that RRCs: (1) perform all
      required drug and breathalyzer tests, (2) hold required disciplinary
      hearings for escapes, and (3) maintain complete and accurate
      documentation related to the performance of SOW requirements. The
      BOP stated in its response that a guidance memorandum will be issued
      to Residential Reentry Management staff which will provide direction to
      improve the BOP’s current monitoring procedures.

      This recommendation can be closed when we receive evidence of the
      guidance memorandum and that the memorandum has been issued to
      Residential Reentry Management staff.

  2.	 Resolved. The BOP concurred with our recommendation to remedy
      the $87,309 in questioned costs related to subsistence payments. The
      BOP stated in its response that the Contracting Officer will be issuing a
      demand for payment letter to each of the three identified contractors
      in March 2012.

      This recommendation can be closed when we receive evidence that the
      $87,309 in questioned costs have been remedied.

  3.	 Closed. The BOP concurred with our recommendation to modify the
      SOW to provide detailed procedures for collecting, reporting, and
      documenting subsistence payments. The BOP stated in its response
      that the RRC SOW used for all new solicitations was revised on
      February 13, 2012, and provides detailed procedures for collecting,
      reporting, and documenting subsistence payments. The BOP provided
      a document containing the modified language in the SOW with its
      response to the draft report.




                                    - 54 ­
   We reviewed this documentation and determined this action 

   adequately addressed our recommendation. Therefore, this 

   recommendation is closed. 


4.	 Resolved. The BOP concurred with our recommendation to ensure
    that required escape reports are filed by BOP CCM offices for all
    escapees, including technical escapes, so that it has an accurate
    record of the types of escapes that are occurring. The BOP stated in
    its response that a guidance memorandum will be issued to Residential
    Reentry Management staff which will provide direction to enhance
    required escape reports are filed for all escapees, including those
    involved in technical escapes.

   This recommendation can be closed when we receive evidence of the
   guidance memorandum and that the memorandum has been issued to
   Residential Reentry Management staff.

5.	 Resolved. The BOP concurred with our recommendation to ensure
    that its procedures for immediately reporting escapes to the USMS are
    followed. The BOP stated in its response that a guidance
    memorandum will be issued to Residential Reentry Management staff
    which will provide direction to ensure policy is followed as it relates to
    reporting escapes to the USMS.

   This recommendation can be closed when we receive evidence of the
   guidance memorandum and that the memorandum has been issued to
   Residential Reentry Management staff.

6.	 Resolved. The BOP concurred with our recommendation to create
    uniform formal disciplinary procedure for inmates who return
    significantly late to the RRC on multiple occasions without an excuse,
    including definitions of what is considered significantly late. The BOP
    stated in its response that a SOW work group has been established to
    evaluate revisions to the SOW. The BOP stated that this
    recommendation will be included in the SOW work group discussions
    and a procedure will be developed to create a uniform disciplinary
    procedure.

   This recommendation can be closed when we receive evidence of the
   uniform formal disciplinary procedure.

7.	 Resolved. The BOP concurred with our recommendation to create
    specific guidelines for determining when to report an inmate as having
    escaped, including how long RRCs should wait for an inmate to return


                                  - 55 ­
   before implementing escape procedures, and requiring that RRCs
   should document the reasons for an inmate’s delay if the inmate
   subsequently returns to the facility. The BOP stated in its response
   that a guidance memorandum will be issued to Residential Reentry
   Management staff which will provide direction to ensure policy is
   followed as it related to escape reporting requirements.

   This recommendation can be closed when we receive evidence of the
   guidance memorandum and that the memorandum has been issued to
   Residential Reentry Management staff.

8.	 Resolved. The BOP concurred with our recommendation to require
    RRCs to submit copies of inmates’ paystubs, waivers, and subsistence
    payment collection receipts along with the monthly billings, which
    should be maintained by the BOP along with the approved invoices.
    The BOP stated in its response that a guidance memorandum will be
    issued to Residential Reentry Management staff which will direct the
    staff to ensure RRCs submit copies of inmates’ paystubs, waivers, and
    subsistence payment collection receipts along with the monthly
    billings.

   This recommendation can be closed when we receive evidence of the
   guidance memorandum and that the memorandum has been issued to
   Residential Reentry Management staff.

9.	 Resolved. The BOP concurred with our recommendation to
    implement procedures for reviewing subsistence payments along with
    the monthly invoices and following up on inaccurate or uncollected
    subsistence payments. The BOP stated in its response that a guidance
    memorandum will be issued to Residential Reentry Management staff
    which will remind staff to follow established procedures in PS 7300.09,
    Community Corrections Manual, and T7300.01, Community
    Corrections Technical Reference Manual, for reviewing subsistence
    payments along with the monthly invoices and following up on
    inaccurate or uncollected subsistence payments.

   This recommendation can be closed when we receive evidence of the
   guidance memorandum and that the memorandum has been issued to
   Residential Reentry Management staff.

10. Resolved. The BOP concurred with our recommendation to develop
    guidelines for determining the materiality of issues identified during its
    monitoring in order to ensure that deficiencies are reported
    consistently, as well as modifying its monitoring reports to describe


                                  - 56 ­
incidents in enough detail that “significant deficiencies” are clearly
distinguished from “areas of concern.” The BOP stated in its response
that a guidance memorandum will be issued to Residential Reentry
Management staff which will emphasize the importance of accurately
documenting deficiencies and maintaining complete and accurate
documentation. Additionally, it will remind staff to seek technical
guidance from the Regional Management Team and review the
program review guidelines.

This recommendation can be closed when we receive evidence of the
guidance memorandum and that the memorandum has been issued to
Residential Reentry Management staff.




                             - 57 ­
